<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, APRIL 16, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Moran, Cochran, Alexander, 
Cassidy, Capito, Lankford, Murray, Mikulski, Shaheen, Schatz, 
and Baldwin.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. ARNE DUNCAN, SECRETARY
ACCOMPANIED BY THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, and Education, and Related Agencies 
will come to order. Glad to have, certainly, Secretary Duncan 
with us today.
    Mr. Secretary, thank you for being here, and thank you for 
the conversations we have had prior to this hearing today. We 
look forward to working with you.
    One of the long-term commitments to the national 
government, even before it was the government under the 
Constitution, was to do things to encourage education. I think 
the Land Ordinance of 1785, the Northwest Ordinance, set aside 
a section in all that developed territory to be sold to be used 
for public schools. So that is how long the Federal Government 
or the national government has thought there was a role here.
    I would also point out that they had no real interest in 
running those local schools whenever they set that aside. And I 
am, certainly, always more receptive to those things we do that 
encourage local school districts to try things, rather than to 
tell them that they have to do things that apply all over the 
country.
    I guess one of my biggest concerns with the budget 
submitted is that it appears to be well beyond the amount of 
money that the law would currently allow us to spend on these 
issues. I hope we can work together to find common ground of 
prioritizing, even in the early stages of marking up the 
budget, the kinds of things you believe and we agree would have 
the most impact on making education work better for families 
and students.
    I was encouraged that the budget emphasizes funding for 
core education programs like Title I and IDEA, things that we 
long ago told local districts they had to participate in, and 
generally promised a significantly higher level of support than 
the Federal Government has already provided. So I was glad to 
see you looking in that direction.
    I am concerned that we overreach into too many education 
issues, as you and I have talked about. State capitals, in many 
cases, are a long way from where education really has to meet 
the students' needs, let alone the national capital. And we 
need to be looking at that.
    I also want to talk later about the idea of a proposed 
framework for a Federal college rating system. I think it's 
hard to come up with a truly unbiased rating or ranking system. 
Frankly, I haven't yet been persuaded there is a reason for 
that.
    We have such diversity in higher education and diverse ways 
of both delivering a product and measuring whether that product 
has impacted the people who are served by that institution in a 
way that really advances them. So I think this is going to be 
an area that I'm going to be concerned about, as you know.
    But hopefully, we can work together to meet the goals of 
this committee, which is to achieve the right funding levels 
and the right policy, to help you achieve the right policy 
levels for the department.
    So I'm glad you are here today.
    I'm also glad to recognize Senator Murray, as she joins as 
the ranking member of this committee.


                   statement of senator patty murray


    Senator Murray. Thank you very much, Mr. Chairman.
    You know, this is a very timely hearing on the Department 
of Education's budget proposal. I also serve as the ranking 
member on the Senate Health, Education, Labor and Pensions 
Committee, Senator Alexander is here as well, and is the chair 
of that subcommittee.
    And we began this week marking up a bipartisan bill to 
reauthorize the Elementary and Secondary Education Act. That 
compromise is a strong step in the right direction to fix the 
badly broken No Child Left Behind law. It will give States and 
districts flexibility while also maintaining Federal guardrails 
to ensure all of our students have access to a quality 
education.
    We will continue to work on this bill today in the HELP 
Committee. Senator Alexander, I'm assuming, will be able to 
move it out, so congratulations to you on that. I look forward 
to working with all of my colleagues to improve our bipartisan 
compromise and actually get this bill signed into law.
    And I want to thank you, Mr. Secretary, for all of your 
leadership and for your staff's assistance to get the bill as 
far along as it is. I look forward to continuing to improve the 
bill with your help.
    And for our work on this committee, we will need to make 
sure that we make the right investments to improve education 
and expand opportunities for all Americans.
    I believe the only way to create sustainable economic 
growth is from the middle out, not from the top down. And 
education is an important investment to ensure our government 
works for all of our families, not just the wealthiest few, so 
more people get the opportunity to learn and to work hard and 
succeed.
    Not only that, a quality education system is also essential 
to our Nation's economic competitiveness. The investments that 
we make today will help ensure that America's workforce in the 
years ahead will be able to create and take on the jobs of the 
21st century.
    Of course, last month, the Senate debated and passed a 
budget resolution. Unfortunately, I believe that that budget 
proposal, and the one that passed the House, fails to support 
investments that we do need in education.
    By contrast, the President's budget proposal would invest 
in students, educators, schools, and communities to make sure 
that every American has access to high-quality education from 
the cradle through their career.
    In 2013, I was very proud to work with Democrats and 
Republicans to break through the gridlock and dysfunction here 
to reach an agreement that rolled back those automatic cuts for 
fiscal years 2014 and 2015. That deal, as we all know, 
prevented another government shutdown. It moved us away from 
the constant crises. And it restored critical investments in 
education and research and defense jobs and a lot more. And it 
really helped get our economy moving again.
    So we need to work on ways to build on that agreement, lift 
the caps, and restore those critical investments for the coming 
year and beyond. The President's budget would do that. It would 
roll back cuts to both defense and nondefense discretionary 
spending.
    Now, Democrats and Republicans both agree that 
sequestration is terrible policy. We worked together to address 
this before, and I hope we can work with colleagues on both 
sides of the aisle in both chambers to come to a compromise, 
avoid another crisis, and ensure that we are investing in our 
communities.


                   support for the president's budget


    The Department of Education's budget proposal starts with 
our youngest learners. I'm a former preschool teacher. I have 
seen firsthand the kind of transformation that early learning 
can inspire in a child. And I believe that we should be 
investing more in children, not less.
    The President's budget would increase funding for the 
preschool development grants program. Right now, this program 
is helping 18 States expand high-quality early learning 
programs for low- and middle-income children and families. But 
the need to expand high-quality early learning programs doesn't 
just exist in 18 of our States. In fact, 36 States actually 
applied last year, including my home State of Washington.
    This budget proposal would continue this program and enable 
my State and others to earn grants to expand early learning.
    In our country, we believe that all students should have 
access to a quality public education, regardless of where they 
are from or how they learn or how much money their parents 
make. Congress established Title I in the Nation's education 
bill to provide Federal resources so students from all 
backgrounds get the support they need to succeed.
    But today, across the country, inequality in our education 
system persists. Some schools simply don't offer the same 
opportunities as others.
    Mr. Secretary, I was very pleased to see that the 
department's budget proposal proposes an increase in Title I 
funding. Those resources will help close the gaps in education 
and achievements so all of our students do have access to high-
quality education that puts them on a path to graduate from 
high school and college and be career ready.
    And, Mr. Secretary, I do want to raise a concern on Impact 
Aid in your proposed budget. Impact Aid is what gives our 
students and schools in our military and our tribal communities 
Federal support and stability. As you know, Impact Aid is 
critical for communities in Washington State and across the 
country.
    Your budget would eliminate $67 million for the Federal 
property program within Impact Aid. I have made very clear that 
I oppose those cuts, just as a bipartisan majority of my 
colleagues do.
    Also, Mr. Secretary, as you know, our country will need a 
highly skilled workforce to take on the jobs of the 21st 
century. In Congress, we should be working to make college more 
affordable, to reduce the crushing burden of student debt, and 
to give Americans the chance to further their education and 
training and skills. So I am pleased that your proposal will 
help make college more affordable by increasing investments in 
the Pell Grant program.
    In addition, last year, Congress came together to pass the 
Workforce Innovation and Opportunity Act with strong bipartisan 
support. In that bill, we strengthened the connections between 
adult education and workforce systems. I'm pleased that your 
budget proposes resources to support integrating those systems, 
so more workers can connect with available job positions.
    In our country, as I said, we believe all students should 
have access to quality public education, so thank you, 
Secretary Duncan, for being here today to share the 
department's vision for achieving that goal.
    Overall, the President's budget proposes several important 
investments that will help prepare all students for the 
challenges of the coming century, and they will help sustain 
long-term and broad-based economic growth from the middle out, 
so that more families have the chance to get ahead, not just 
those at the top.
    I am very hopeful that Democrats and Republicans can work 
together to make investments we need to make, to make sure 
every American gets the chance to learn.
    Thank you, Mr. Chairman. I yield back.
    Senator Blunt. Mr. Secretary, thank you again for being 
here. As you start into your seventh year as the Secretary of 
Education, I appreciate your dedication to this cause and the 
work you have done.
    I might say, before we start, I think we have a vote 
scheduled at 11, but I think it is only one vote, so my goal 
would be to continue the hearing, Senator Murray, if that is 
okay with you. We will try to go over at different times and 
cast that one vote and take advantage both of our time and your 
time in the best possible way.
    Mr. Secretary, we are glad you are here, and look forward 
to your testimony.


                    summary statement of arne duncan


    Secretary Duncan. Thank you so much, Mr. Chairman, Ranking 
Member Murray, and members of the subcommittee.
    I am pleased to talk to you today about how we can continue 
important progress and expand educational opportunity for every 
child in America. Thanks to the hard work of America's 
teachers, principals, families, communities, and, very 
importantly, the students themselves, for the first time ever, 
four out of five students are completing high school on time.
    High school graduation rates are at record highs. Dropout 
rates are at historic lows. We have seen very significant 
reductions in dropout rates for minority students.
    College enrollment for African-American and Hispanic 
students is up by more than 1 million since 2008. And more 
students than ever are graduating from college.
    Getting to this point has required huge and difficult 
challenges in our schools. These changes haven't been easy, but 
they are working.
    To build upon our current momentum, it's imperative to give 
schools and educators the support, resources, and funding they 
need. This is not the time to turn back the clock on progress 
that our schools, our children, and ultimately our Nation are 
making.
    At the end of 2013, as you talked about, policymakers under 
Senator Murray and Representative Ryan's bipartisan leadership 
came together to partially reverse sequestration and pay for 
higher levels of discretionary funding with long-term reforms.


                        reversing sequestration


    This agreement, while limited, allowed us to invest in 
critical areas, from strengthening our military to research in 
our schools. In 2014, Congress was able to restore some 
sequestration cuts to Title I, which serves our poor children, 
and Individuals with Disabilities Education Act, Part B (IDEA), 
which serves children with special needs.
    The President's 2016 budget builds on this progress by 
reversing sequestration and paying for it with a balanced mix 
of common-sense spending cuts and closing tax loopholes. The 
President's budget also proposes additional deficit reduction 
and would reduce debt as a share of our economy.
    The President has made it clear that he will not accept a 
budget that locks in sequestration, which would bring both 
defense and nondefense funding to their lowest levels in a 
decade.
    The reality today is that States and districts and families 
and students need more smarter resources to prepare all 
students, both for their future and for their now. To that end, 
our budget reflects four main priorities.


                  priorities of the president's budget


    First, ensuring that all young people have a chance to 
learn and succeed. Our request includes a $1 billion increase 
for Title I to help close resource and equity gaps.
    Second, as Senator Murray talked passionately about, we 
want to help States expand high-quality preschool. Our budget 
includes $75 billion in mandatory funding to work with States 
to make voluntary preschool available to all low- and moderate-
income 4-year-olds. It also includes $750 million to continue 
and expand preschool development grants, where there is so much 
demand, as we see across the Nation.
    Third, supporting educators, including by investing $2.3 
billion to improve teacher and principal effectiveness.
    And finally, improving post-secondary access, 
affordability, and outcomes, most notably through America's 
College Promise, which would make 2 years of community college 
free for responsible students. That idea has been led by 
Senator Alexander's State of Tennessee.
    Across these areas, we commit to supporting and spreading 
local innovations, not innovations coming from me or anyone 
else in Washington, but local innovations like those in the 
Investing in Innovation program. We have received more than 
2,800 applications for this program. Unfortunately, we only had 
resources to fund about 140 of these fantastic local ideas. Our 
aim is to focus on using and developing evidence to maximize 
results both for students and for taxpayers.
    Through First in the World, we are aiming to promote 
student success at scale. A set-aside for minority-serving 
institutions and historically black colleges and universities 
will support their critical contributions to this work. We had 
an overwhelming response to the 2014 competition, 460 
applicants, and we were able to fund only 24.
    Educators and schools need support to advance their 
progress. This isn't about spending money for its own sake. It 
is about making prudent investments to ensure excellence and 
equity for every student.
    Quickly, before I close, I want to thank Senator Alexander 
and Senator Murray for their good faith bipartisan work to try 
to fix the broken No Child Left Behind. It has been long 
overdue. We are moving to real work. I can't ask you to work 
any harder or smarter or more collaboratively. There is a long 
way to go, as you said, Senator Murray. But I just really, 
really appreciate your combined leadership and hope, not for us 
but for our Nation's kids. So thank you so much.
    I will stop there and be happy to take any questions you 
might have. Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Hon. Arne Duncan
    Mr. Chairman, Ranking Member Murray, and Members of the 
Subcommittee: I am happy to testify on behalf of the President's 2016 
budget request for the Department of Education. The overall 
discretionary request is $70.7 billion, an increase of $3.6 billion, or 
5.4 percent, over 2015.
    At the end of 2013, policymakers came together on a bipartisan 
basis to partially reverse sequestration and to pay for higher 
discretionary funding levels with long-term reforms. We have seen the 
positive consequences of that bipartisan agreement for our ability to 
invest in the future, including partially restoring cuts in education 
programs like Title I and IDEA. We have also seen the positive 
consequences for our economy, which is experiencing the fastest job 
growth since the late 1990s.
    The President's Budget builds on this progress by reversing 
sequestration, reducing the deficit, and putting debt on a downward 
path as a share of the economy. The President has been clear that he 
will not accept a budget that locks in sequestration or one that 
increases funding for our national security without providing matching 
increases in funding for our economic security. It would damage our 
economy, preventing us from making pro-growth investments in areas 
ranging from basic research to education.
    The President has a plan to build on the bipartisan Murray-Ryan 
agreement and end sequestration--fully reversing it for domestic 
priorities in 2016, matched by equal dollar increases for defense. He 
would more than pay for these new investments with smart spending cuts, 
program integrity measures, and commonsense tax loophole closers.
    Building on the bipartisan Murray-Ryan agreement and reversing 
sequestration will make space for critical education investments. Even 
without adjusting for inflation, total discretionary funding for 
education in 2015, excluding Pell Grants, remains below its fiscal year 
2008 level. If you take into account inflation, education funding 
without Pell Grants is 10 percent below 2008. It's time to turn that 
trend around and invest in the country's most important asset, our 
people. Evidence shows us that this investment will contribute to 
better jobs, higher earnings, and ultimately reduced income inequality.
    If we can reverse sequestration, Mr. Chairman, you, Ranking Member 
Murray, and the other Members of the Subcommittee can put together a 
bill that's good for kids and the Nation.
                 president obama's 2016 budget request
    Within our budget, we have four key priorities: (1) equity and 
opportunity for all students; (2) high-quality early learning programs; 
(3) support for educators; and (4) improving access, affordability, and 
student outcomes in postsecondary education. The Budget also reflects a 
strong emphasis on using and developing evidence in order to maximize 
results for taxpayers and students.
           increasing equity and opportunity for all students
    The first major priority is to ensure all of our young people, 
especially those poor and minority students in high-poverty schools 
that are the focus of the Elementary and Secondary Education Act 
(ESEA), have the chance to learn and achieve. The outcomes of our 
education system continue to reflect unacceptable inequities in the 
distribution of resources, including funding, high-quality teaching, 
challenging coursework, and other important academic and nonacademic 
supports that contribute to improved student achievement. To close this 
resource and opportunity gap, the request provides a $2.7 billion 
increase, or almost 12 percent, for ESEA programs, including a $1 
billion increase for Title I Grants to Local Educational Agencies 
(LEAs)--the cornerstone of the Federal effort to ensure that all 
students--including poor and minority students, students with 
disabilities, and English Learners--graduate from high school prepared 
for college and careers. The request also provides $11.7 billion, an 
increase of $175 million, for Grants to States under the Individuals 
with Disabilities Education Act (IDEA) to support special education and 
related services for children with disabilities, and $773 million, an 
increase of $36 million, for English Language Acquisition grants for 
English Learners.
    A key request in this area is a new Equity and Outcomes pilot that 
would promote more equitable and effective uses of Federal formula 
grant funds. Applicants would demonstrate a commitment to equitably 
distributing State, local, and Federal dollars--based on actual 
expenditures--to their highest poverty schools. In exchange, 
participating districts could receive flexibility from fiscal, 
monitoring, and reporting requirements for their schools, and could 
combine Federal formula funds to support a districtwide plan to use 
evidence-based practices and strategies that improve student 
achievement in high-poverty schools.
    We are also proposing new resources that would help improve 
educational opportunities and outcomes in some of our most impoverished 
communities, including a $93 million increase for the Promise 
Neighborhoods program. These funds would help an additional 25 high-
poverty communities develop and implement neighborhood-based plans for 
meeting the cradle-to-career educational, health, and social service 
needs of children and families in high-poverty communities. In 
addition, the President's request includes a $50 million increase to 
significantly expand the Native Youth Community Projects program that 
we are launching in 2015. These funds will be deployed this year in a 
select number of Native communities to support culturally relevant and 
coordinated strategies designed to improve the college-and-career 
readiness of Native children and youth. The budget proposal would help 
up to 10 Native American communities develop and implement 
comprehensive strategies to improve the college- and career-readiness 
of Native youth.
    Finally, consistent with the President's challenge to re-design 
America's high schools to adequately prepare America's students for 
college and successful careers, we are proposing $125 million for a new 
Next Generation High Schools program, to support the whole school 
transformation of the high school experience for youth. That program 
would support our school leaders to personalize learning for students 
and apply challenging academic concepts to real-world challenges, 
particularly in the areas of science, technology, engineering and math.
             expanding high-quality early learning programs
    The United States has fallen behind many countries in providing 
access to preschool education, and currently ranks just 25th in the 
world in its enrollment of 4-year-olds. This is why we are renewing our 
commitment to a $75 billion mandatory Preschool for All program that 
would partner with States to support universal access to high-quality 
preschool for 4-year-olds from low- and moderate-income families. Our 
preschool request also includes $750 million in discretionary resources 
to expand the Preschool Development Grants program to nearly every 
State that submits a high-quality application.
    In addition, we are requesting an increase of $115 million for IDEA 
programs to help States provide high-quality special education and 
early intervention services for all eligible children with 
disabilities. These funds include $15 million for Pay for Success 
pilots to expand early screening and early intervention services for 
infants and toddlers at risk of autism.
    These investments complement important early learning initiatives 
in the Department of Health and Human services including an historic 
investment in high quality child care for
    children under the age of 4 and new investments in Head Start to 
make those programs a full school day and school year and expand access 
for infants and toddlers to Early Head Start.
           increasing support for teachers and school leaders
    Our third priority is to provide support for teachers and leaders 
who are doing the hard, daily work of implementing new college- and 
career-ready standards and aligned assessments, turning around our 
lowest-performing schools, and using new evaluation and support systems 
to improve their practice. Teachers today do not have the support, 
opportunities, or autonomy they need to succeed.
    Our 2016 request would provide significant new resources to address 
these concerns. Through the mandatory Teaching for Tomorrow program, 
our Administration has put forward a new vision for how to support our 
teachers and principals who are doing the hard work every day to ensure 
all students graduate high school ready for college and career. This $5 
billion over 5 years would support States and school districts as they 
make meaningful transformations in their approaches to recruiting, 
training, supporting, retaining, and advancing highly-effective 
teachers throughout their careers. States and districts would submit 
plans including strategies that are based on or build evidence of 
effectiveness. Additionally, we would build on the Teacher Incentive 
Fund through a $350 million Excellent Educators Grants proposal that 
would support innovative approaches not only to compensation, but also 
to professional development, support, and career advancement. We also 
would support efforts to help expand the pipeline of effective teachers 
and principals through a consolidated $139 million Teacher and 
Principal Pathways proposal. We would improve upon the Educational 
Technology State Grants program, providing $200 million in State 
formula grants to help teachers and school leaders develop and test new 
ways to use technology to improve instruction and personalize learning. 
Finally, we would maintain strong support for the existing Improving 
Teacher Quality State Grants program, providing a steady $2.3 billion 
in funding.
improving access, affordability, and student outcomes in postsecondary 
                               education
    Our 2016 request would help make college affordable and help more 
Americans attain a college degree or certificate. While the total aid 
available to postsecondary students has grown dramatically over the 
past 6 years, helping to ensure that more students are graduating 
college than ever before, a significant opportunity gap remains. The 
2016 request funds a signature initiative, America's College Promise, 
which would create a new partnership with States to make 2 years of 
community college free for responsible students, letting students earn 
the first half of a bachelor's degree and earn skills needed in the 
workforce at no cost. It also includes a $30 billion investment in Pell 
Grants to protect and sustain its value for future generations by 
continuing to index it to inflation beyond 2017.
    Another key discretionary request in this area is $200 million for 
a proposed American Technical Training Fund to expand innovative, high-
quality technical training programs that have strong employer 
partnerships and include work-based learning opportunities.
              using and developing evidence-based programs
    In recent years, the Department has pioneered several evidence-
based programs and introduced priorities for the use of evidence into 
existing initiatives.
    This Budget continues that commitment by increasing funding for 
programs that provide additional resources for interventions that are 
either based on evidence of success or help build evidence of what 
works in education. These programs build on approaches developed during 
the last Administration and work in partnership with the Institute for 
Education Sciences. The Budget requests $300 million for the Investing 
in Innovation (i3) program for K-12 education, and $200 million for 
First in the World for higher education. Within the latter program, 
there would be a 30 percent set-aside for Minority-Serving Institutions 
and HBCUs. The request also creates new incentives for the use of 
evidence in existing programs, ranging from the Leveraging What Works 
initiative for K-12 formula programs to targeted increases in the 
School Improvement Grants and the postsecondary TRIO programs. Finally, 
the Budget strongly funds the Institute of Education Sciences.
    Already, our evidence-based initiatives have funded dozens of 
randomized control trials and other evaluations that build knowledge 
about what works. This knowledge can help all educators to help more 
students succeed.
                               conclusion
    In conclusion, our 2016 request reflects the President's 
determination to make the investments necessary to secure America's 
future prosperity. I look forward to working with the Subcommittee to 
secure support for the President's 2016 Budget for education.

    Senator Blunt. Thank you, Mr. Secretary.

                         COLLEGE RATING SYSTEM

    I will ask a couple questions and we can have another round 
of questions, if members here want to have that. I'm sure I 
will have more than one series of questions.
    On the higher education ranking system, or the rating 
system, it has been a year and a half now where the department 
has been talking about coming up with criteria. That criteria 
still looks like to me that it's not very specific, even 
talking about how many intangible things there are in higher 
education.
    I'm wondering why after looking at this as long as you 
have, and the criteria still being as nebulous as it is, why 
are we still talking about this? What is the purpose of having 
this rating system?
    Secretary Duncan. First of all, I appreciate your past 
leadership as a university president. Senator Alexander, the 
same. So you have some real knowledge of this.
    We have always come at this, and I have said this from day 
one, with a real sense of humility. There is a lot we know we 
can't do. And we can't begin to capture all the ways in which 
higher education confers value, from inspiring creative passion 
to creating a healthy democracy. So we come at this with real 
humility.
    But we think there are some basic and key areas where there 
has been, frankly, a huge lack of transparency. There has been 
an opaqueness. It's very, very difficult for families to figure 
this stuff out and to get a better understanding of issues like 
access and affordability, and the completion of degrees, and 
whether folks can get a decent job at the backend.
    We think that this is a huge decision that young people 
make, whether they are first-generation college-goers or 
whether they have two college-educated parents. I can't tell 
you how many young people I have met with where this process is 
simply overwhelming. Being able to get better information out 
to the Nation's young people and their families about 
graduation rates, what is a grant, what is a loan, what do 
outcomes look like, is want we want to make it easier.
    It's interesting to me. We have 7,000 institutions of 
higher education, roughly. There is a huge diversity, public, 
private, 2-year, 4-year, all kinds. It should be a very 
efficient marketplace. It's not. It's a very difficult one for 
young people to penetrate.
    We look forward to working with you. I hear your skepticism 
and appreciate it. I'm happy to come back with you and your 
staff to talk it through.
    But we want to do everything we can to get good information 
out to young people and their families, and help them make 
better choices, more informed choices.

                  CONCERNS ABOUT COLLEGE RATING SYSTEM

    Senator Blunt. I would just say, Mr. Secretary, I think one 
of the reasons that the Federal Government has been able to be 
involved in higher education in a pretty significant way 
financially since World War II, is it is the one place where 
the Federal Government has been willing to make a financial 
commitment and not try to run the system.
    I mean, all these schools are accredited. If you qualify 
for the financial assistance, then you choose among accredited 
programs, and that has created a great diversity of options for 
people to look at that to meet different student needs at 
different levels.
    People like me, who are the first person in their family to 
graduate from college, often have a different set of 
aspirational goals and a sense of what college might mean to 
them, as opposed to somebody who is a fourth-generation Harvard 
student who probably has not only a different set of goals, but 
likely to make more money.
    Eight hours at community college that allows you to get a 
better job than you otherwise would have had, is that a plus or 
minus in this system, whether you graduated or not?
    I just think with all the challenges out there, that this 
is one--I can't find very many people in higher education, I'm 
going to concede there might be one, but I haven't found one 
yet, who thinks this really adds to the system rather than adds 
to the confusion in the system that might be there already.

                           GAINFUL EMPLOYMENT

    On this subject, let me also, on the other side, the sort 
of gainful employment side, which seems to be particularly 
focused at the for-profit side of higher education, where are 
you headed in terms of what you consider a gainful employment 
ratio between what somebody was making and the student loan 
they were trying to pay off? How would you measure that?
    Secretary Duncan. Just to be very, very clear that gainful 
employment is not just focused on the for-profit sector. There 
are fantastic actors in the for-profit sector, but there are 
some very bad actors in the for-profit sector.
    We had to take some action earlier this week, and the 
institution will have a chance to reply. But the findings that 
we are putting forward are pretty stunning, pretty egregious--
the waste of taxpayers' money, which I think none of us want to 
support, none of us can feel good about, and leaving young 
people in a worse position than where they started.
    So all we want to do is make sure that young people are 
getting real skills that lead to real jobs and lead them to a 
better financial situation. When young people are taking on 
massive debt, who are already struggling, who are often already 
in a disadvantaged position, and ending up in a worse position 
because of this, I think we do them a great disservice. I think 
we do taxpayers a great disservice.
    So where there are good actors who are providing real 
skills and providing a ladder to the middle-class, we want them 
to grow. We want them to prosper. We want them to serve more 
young people.
    But where you have actors who are taking advantage of a 
massive influx of taxpayer resources, and actually leaving 
people in a worse position than when they started, that is not 
something you or I or any of us should feel good about 
supporting.
    Senator Blunt. I may come back to this subject. I'm going 
to go ahead and go to Senator Murray here. But I may come back 
later and ask where you came up with this 8 percent of total 
earnings as a ceiling for what would be the right ratio to look 
at. But we can come back to that later.
    Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much.

                 ACCESS TO EARLY LEARNING AND PRESCHOOL

    Mr. Secretary, last week, the National Research Council 
released a report and recommendations for how to apply the 
science of development and early learning to building the 
workforce needed for high-quality programs serving young 
children. The report noted that its recommendations will 
require significant resources.
    [The information follows:]

    Link to National Research Council Report released April 1, 2015, 
referenced by Senator Murray: http://www.nap.edu/catalog/19401/
transforming-the-workforce-for-children-birth-through-age-8-a.

    Senator Murray. In the past few years, Congress has 
provided your department with funding, since fiscal year 2011, 
for Race to the Top Early Learning Challenge grants and 
preschool development grants. Washington State, my home State, 
has used Race to the Top funding to invest in its workforce.
    How is your department working with the Department of 
Health and Human Services to administer these grants and 
address workforce issues that are outlined in that report?
    Secretary Duncan. We were happy to help and participate in 
that report. The findings make a lot of logical sense, 
intuitive sense, to someone like you who knows this field 
intimately.
    All of the applicants from all the States, both those we 
fund and those who we couldn't fund, all 36 applicants for 
grants, described in their grant applications their efforts to 
provide comparable salaries and strengthen the workforce, so we 
know how critically important this is.
    So we fully support those findings. They move in the right 
direction. We think, candidly, that we were ahead of the study 
and encouraging these things, and States totally get it.
    The real challenge, Senator Murray, that you talked about, 
and I feel so passionately, is that we simply don't have the 
resources to get behind people who know the right thing to do. 
They just don't have the dollars to do that.
    There is so much unmet need, waiting lists of thousands and 
thousands of children in virtually every State I visit.
    This has become a total bipartisan issue in the real world. 
We actually have more Republican Governors than Democratic 
investing today. I think that is a really good thing. We just 
have to get past the dysfunction here in Washington and look at 
what is happening out there.
    New Mexico, Nevada, the new Governor of Texas, who is a 
strong conservative, said his most important item is getting 
more resources for early childhood education. Alabama, Georgia.
    One of my most heartbreaking calls, you are obviously very 
unhappy, which I respect, we couldn't fund Washington.
    One of my toughest calls was with the Governor of 
Mississippi, who desperately wanted resources. And as much need 
as there is across the State, we know how bad the need is in 
Mississippi, how the great the need is. We simply didn't have 
the dollars to fund it.
    I just really would love folks here in Washington to come 
together, look at the bipartisan agreement in States across the 
Nation, and figure out how we can get children off these 
waiting lists and get them into kindergarten to prepare to be 
successful, not have them start school a year to 16 months 
behind. That serves nobody well.
    Senator Murray. And it is worrisome for our competitive 
global workforce in the future, because other countries are 
investing.
    Secretary Duncan. My number won't be exact, but we look at 
other industrialized nations in terms of providing access, the 
United States ranks something like 26th or 29th. It is no badge 
of honor. It is just that a vast majority of these 
industrialized countries understand how important this is, and 
they have provided greater access.
    We are trying to lead the world in everything, lead the 
world in college graduation rates, lead the world in high 
school graduation rates. We should think about leading the 
world in access to high-quality early learning.
    We know the brain science. We know the research. We know 
the return on investment. And the fact that so many countries 
have invested significantly more and provided greater access 
than we have, we should be ashamed of ourselves. I can't put it 
in another way.
    We should be ashamed of ourselves, and we should want to do 
better for our kids and for our Nation's economic 
competitiveness, as you said.
    Senator Murray. Thank you.

                            TITLE I FUNDING

    Mr. Secretary, as you know, achievement gaps between our 
low-income students and all students continue to exist. It is 
about 11 percent in both reading and math. The Title I grants 
to local Education agencies, the LEAs program, was created to 
help eliminate those gaps.
    Your budget proposal would increase funding for the program 
by about $1 billion, fully replacing the cuts that were imposed 
by sequestration in recent budget battles.
    Can you talk a little bit about what has been the impact of 
the reductions to Title I funding that have been made since 
2010?
    Secretary Duncan. There are two things and both have 
happened at the same time, and neither is good. One is the 
reduction in very real resources for our poorer children. And 
two is that we have an increase across the Nation of children 
who are eligible for these resources.
    So greater need, less resources.
    And I'm convinced, as are you, as I assume virtually 
everyone on this committee is, that the best way for us to end 
cycles of poverty and move children and families out of 
poverty, is to give them a great education, give them a world-
class education.
    If we do that, they have a world of opportunity, and they 
can enter the middle class. If we exacerbate or perpetuate 
those gaps, we are part of the problem. So we need those 
resources, whether it's access to better afterschool programs, 
whether it's access to AP classes, whether it's access to the 
best teachers. Whatever it might be, our children, particularly 
our poorest children, don't just need this, they deserve this.
    So when we have less resources to help more children who 
are poor, and if our goal is to reduce income inequality and to 
increase social mobility, the best way we can do that--in fact, 
I would say, by far the best way we can do that is by providing 
a high-quality education to every child.
    You mentioned achievement gaps. Our achievement gaps are 
insidious. I'm very pleased that on the high school graduation 
rates, we are closing those gaps. That is huge, but we have a 
long way to go.
    But instead of talking about achievement gaps, I prefer to 
talk about opportunity gaps. As you know, far too many 
children, poor children who live in disadvantaged communities, 
do not have the opportunities that their wealthier counterparts 
do.
    So the children of the wealthy often get more. The children 
of the poor often get less. That is unfair. That is un-
American. This is a step to try to rectify that problem.
    Senator Murray. Okay, thank you very much.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.
    Welcome to our committee hearing, and we want to thank you 
for your hard work and your efforts to help make sure that our 
Federal response to needs in education around the country are 
met. At the same time, though, recognize too that we have very 
limited availability of funds and programs that will solve all 
the problems in elementary and secondary education, for 
example.

                        STATE AND LOCAL CONTROL

    The States and local governments have the primary 
responsibility of funding, the hiring of teachers, and all the 
rest that goes into making our Nation a nation of opportunity 
for good education.
    I think working out a division of responsibility for what 
programs are best handled by the local officeholders and people 
who are responsible for operating our schools and colleges, 
that we not encroach too much on the incentives that we have 
that are created at the local level to benefit special needs.
    I know Title I of the Elementary and Secondary Education 
Act comes to mind, where teachers are recruited, you have money 
there that goes to local governments to help encourage people 
to go into education and help upgrade the quality of our 
students.
    What is your assessment during your time as Secretary about 
the importance of our funding programs of that kind?
    Secretary Duncan. First, Senator, I just want to publicly 
apologize to you and your State, as I did with Senator Murray 
privately. That was one of the hardest series of calls I had, 
those with your Governor, who knows how far behind so many 
children in your State start, who desperately wanted our 
resources. We simply couldn't fund down the preschool 
development grants slate far enough. We simply ran out of 
money.
    As a Nation, we have a long way to go. By virtually every 
measure, Mississippi, sadly, on educational achievements, is 
near the bottom. So there is no place, arguably, with greater 
need than your State.
    So I just want you to know how badly I felt about that and 
feel about that and hope, going forward, we can do more to 
help.

                         FUNDING FOR EDUCATION

    Where we have resources to help close, again, not just 
achievement gaps, but what I call opportunity gaps, that is 
critically important. And when we see high school graduation 
rates at all-time highs; when we see Black and Latino high 
school dropout rates cut by about half and 45 percent, 
respectively; when you see every group of children graduating 
from high school at higher rates, Black children, Latino 
children, English language learners, students with 
disabilities, poor children, that is fantastic progress.
    I'm just so thankful for the hard work that teachers and 
educators and parents and, ultimately, students are doing 
around the Nation.
    The issue for me is how do we get better faster? Our 
dropout rate is still too high. Our graduation rate is not high 
enough. And we need these resources to give young people a 
chance to be successful in life.
    Senator Cochran. Well, if we find a way to add money for 
some of these programs that have proven to be so beneficial, 
you wouldn't recommend to the President that he veto the bill, 
would you?
    Secretary Duncan. If we can find some more resources to 
support what is working, that is very, very important.
    Senator Cochran. Okay.
    Thank you, Mr. Chairman.
    Secretary Duncan. If I could just quickly add--sorry, not 
to go on too long. We need to invest in those programs like 
Title I, like IDEA. But we also need to invest in innovation. 
Again, there is so much great local work going on where people 
are starting to get outsized, extraordinary results for young 
people who historically struggled, whether it's in rural 
Tennessee or in Appalachia in Ohio, where graduation rates are 
now higher than the State.
    What we don't do in education is take to scale what is 
working. So we should invest in those core programs. But I 
would also say we need to invest in innovation and just help 
great local educators scale up what is making a difference in 
their communities.
    There is amazing work going on out there. We just don't 
capture those benefits enough. I think that is a very 
appropriate Federal role, and it, candidly, doesn't happen at 
the State and local level.
    Again, we have so many more applications. With dollars 
available, we can do better together there.
    Senator Blunt. Thank you, Senator Cochran.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, thank you.
    First of all, Mr. Secretary, thank you for your service, 
the fact that your tenure has been long in the Obama 
administration shows that you really have a real commitment to 
education and really now, over the span of your tenure, really 
seen what works and what doesn't. So we really want to thank 
you for your advocacy and your steadfastness.
    I want to associate my remarks with the Senator from 
Washington, Senator Murray. In order to meet our needs, we have 
to focus on lifting the caps. There are no two ways about it.
    I know there are colleagues who want to lift the defense 
caps, and I don't argue that in this committee or even on the 
floor. But I think we have to look at raising the caps in the 
domestic programs. And they are intertwined.

            IMPACT AID, IDEA, AND JAVITS GIFTED AND TALENTED

    So let me tell you how I see it: one county, two people, 
three programs. One county, Anne Arundel County, Maryland, the 
home of the State capital, the home of the United States Naval 
Academy, the home of Fort Meade, the National Security Agency, 
and other intel agencies. Three programs--Impact Aid, IDEA, the 
Javits Gifted and Talented. Two people, they have names like 
Rosa and Jack.
    Rosa was a child who was stigmatized and bullied in school 
because she has Down syndrome. And the word ``retarded'' had 
become a bullying invitation.
    Working on a bipartisan basis with Senator Enzi, we passed 
Rosa's law--he had the same challenge in his own State--to 
remove the stigma. Rosa is in this county.
    Then there is Jack Andraka. He is one of the 1 percent, not 
the 1 percent that makes zillions of dollars, but the 1 percent 
who is a genius. Jack is a genius. In high school, he has 
invented a test for pancreatic cancer.
    But if you talk to his mother, a nurse, she had to forage 
to fund the programs to help Jack. And then he goes on to win 
the Intel scholarship and invent this stunning, stunning, 
stunning discovery.
    So what is it? You talk then to the Republican County 
Executive. He didn't even know about Impact Aid. Then I tell 
him he's a compassionate post because the Army at Fort Meade so 
loves the educational program and the linkage to Kennedy 
Krieger. IDEA, and it's underfunded.
    Then the Javits program, they laugh about it because it's 
so small, so skimpy, so spartan.
    So my point is, while we look at innovation, and aren't we 
cool, and we're doing brave new ideas, and we're going to scale 
up and follow the hoop dreams, I'm worried about these bread-
and-butter programs.
    So I associate myself with Impact Aid. If we are going to 
support the troops, let's support where the troops live. We are 
proud of those troops. We love them there. Quite frankly, they 
are good for economy. And we sure are proud of them.
    IDEA is continually underfunded. That is a bread-and-butter 
program in every State.
    And then that takes me to the Javits program, the program 
for the gifted and talented. I have kept that program alive.
    Tell me what your plans are. We know what we can do on 
Impact Aid. I think there is a commitment for IDEA.
    But do you even know what I'm talking about? That isn't an 
argumentative question. It is not meant to be argumentative. 
But that is my point.
    These children are a national resource. I'm not talking 
about the 1 percent genius. I'm talking, in our schools, there 
is a presumption that only rich kids are smart. You and I don't 
believe that.
    Where are we on the Javits program? And what is the 
Department of Education's commitment on that? What have you 
identified, if any, the need for that? And why did you cut it? 
Of any program that could be picked on, you took it from $10 
million to $9 million for the whole country. We could use that 
in just the Delmarva Peninsula.

                  STATUS OF JAVITS GIFTED AND TALENTED

    Secretary Duncan. I will start and turn it over to Tom 
Skelly, our budget director, to walk that through.
    First, I just want to thank you for your service. My 
service pales in comparison to what you have done, in terms of 
longevity and impact. So thank you for everything you have 
done. It has been a joy working with you. I know we have a 
little bit more time together, but I just wanted to say that 
publicly.
    On all these things, again, and I hate that so often, 
because of the dysfunction in Washington, we have to make these 
choices between whether it's the bread-and-butter programs you 
talk about or doing more innovative stuff or doing more 
preschool. We should be doing all of the above and hold 
ourselves accountable for results. If we are not getting 
results, we should scale back.
    But in all these things, it shouldn't be either/or. We 
shouldn't be forced to choose. Too often, with things like 
sequester caps, that is the position we are put in.
    So whether it's Javits Gifted and Talented, whether it's--
--
    Senator Mikulski. Javits. Javits.
    Secretary Duncan. Javits. Whether it's IDEA, whether it's 
Title I, we should be supporting and building upon these 
programs. We should also be doing more early childhood.
    Senator Mikulski. Tell me what you are doing for Gifted and 
Talented.

                        CUTS TO SMALLER PROGRAMS

    Mr. Skelly. The Javits program itself is one of the smaller 
programs that did get eliminated over the last few years. We 
had almost $8 million in it.
    Again, the priority has been for larger programs, like the 
$1 billion in Impact Aid or the $12 billion in IDEA. Some of 
the smaller programs over time have been cut back.
    Again, as Secretary----
    Senator Mikulski. I know they have been cut back. You told 
me what I already know. Tell me what you do to help these 
children in the Department of Education. And what is that 
identification of need? Or do you even know?
    Mr. Skelly. I think that the approach is to take all 
children and look at them, provide the support for the general 
programs, look at things that are innovative, but Congress has 
made decisions in the past. These weren't things necessarily 
proposed by the administration.
    Fifty-three programs have been eliminated since 2010. They 
tend to be smaller programs. When Congress goes through the 
ESEA reauthorization process, you can affirm that that is the 
kind of program that should be continued and Congress can put 
money into it in appropriations.
    Senator Mikulski. Do you know what you do at the Department 
of Education to help these kids? Do you even think about them?
    Secretary Duncan. We think about every child every single 
day.
    Senator Mikulski. I don't want to hear about how you think 
about every child. We all think about every child. I'm asking 
about this population.
    Every child is special. I understand that.
    Secretary Duncan. We do the best we can to help provide a 
world-class education to every single child.
    Senator Mikulski. Do you have a focus in any department to 
implement this and think about the talent pool we have to 
identify them and help the teachers know how to best develop 
them?
    Secretary Duncan. To be clear, when students are gifted and 
talented, we don't identify. That is done at the local level.
    Senator Mikulski. This proves my point. It is a waste of 
national resources.
    Senator Blunt. Thank you, Senator Mikulski.
    We have the opportunity here to have both the ranking 
member and the chairman of the full committee, and the ranking 
member and the chairman of the authorizing committee, so that 
gives us a lot of strength on this committee.
    And Senator Alexander is the chairman of the authorizing 
committee and an important member of this one.
    Senator Alexander. Thank you, Senator Blunt.
    Mr. Secretary, welcome. Thanks for your nice comments about 
Senator Murray and our work on fixing No Child Left Behind.
    I think Senator Murray must have been a good preschool 
teacher, because in preschool, you learn to work well together, 
and she understands that. Whether it's working on the budget or 
working on No Child Left Behind, which is a tough nut to crack, 
she has been good to work with and we have made a lot of 
progress.
    Let me throw the compliment back. Sometimes the President 
doesn't get much credit for working well with Congress. I want 
to thank you and President Obama for your public comments and 
the private way you have worked with us in creating an 
environment where we have a better chance to succeed on No 
Child Left Behind.
    We have some strong opinions on this. Everybody does. But 
you have been very constructive and very helpful. So has the 
President. I thank you for that.

                REAUTHORIZATION OF HIGHER EDUCATION ACT

    I would like to talk about higher education, and I will 
just ask a single question and let you make an answer.
    Not long ago, Senator Mikulski, I, Senator Burr, and 
Senator Bennet asked a distinguished group of higher education 
officials headed by the chancellors of the University of 
Maryland and Vanderbilt University to look at higher education 
and give us a report about how we can simplify Federal rules 
and regulations.
    They gave us 59 specific recommendations. It's a very good 
report. It is not a sermon. It is specific things we can do. 
You and I have talked about it a number of times.
    They put them in order. They even told us what the top 10 
were. And Senator Mikulski and I and Bennet and Burr are going 
to take as many of those as we can and put those into 
legislation and try to make it a part of our reauthorizing of 
the Higher Education Act.
    But here's where I'm getting: Twelve of the 59 were things 
that the department by itself could fix. Three of the top 10 
were things that the department by itself could fix.
    Now these aren't things that Secretary Duncan and President 
Obama by themselves did. I mean, Secretary Alexander and 
President Bush did some of them. I mean, this is going all the 
way back to 1965.
    But what they found was that, for example, Vanderbilt 
University hired the Boston Consulting Group to tell it how 
much it cost Vanderbilt, its non-hospital part of Vanderbilt, 
how much Federal regulations cost Vanderbilt to operate in 1 
year, and it was $150 million.
    That is $11,000 on every student's tuition. It's 11 percent 
of all their money. That is what the whole commission said is a 
jungle of red tape.
    The National Academy of Sciences has said that an 
administrator's time on investigations is 42 percent 
administrative time. That is billions of more dollars of wasted 
money. Now most of that is not Department of Education. Those 
are other departments in the government.
    But this is a widely recognized problem that we have that 
we have all contributed to, including us in Congress and those 
of us who have been in government.
    So here's my question. An example, let me just give an 
example. For example, when students withdraw from college, a 
portion of their Title IV funds has to be returned to the 
Federal Government. Regulatory text for figuring out what that 
is is over 200 pages in a handbook. That is one of the number 
one objections they have. That could be easily fixed.
    With financial responsibility standards, there is a 
requirement for audited financial statements for private, 
nonprofit, and for-profit colleges that causes them to go get 
expensive letters of credit, according to this report. These 
requirements by the department don't follow accepted accounting 
principles.
    Another one is that when the Federal Application for 
Federal Student Aid (FAFSA), the application for a Federal 
grant or loan, which is 108 questions, is applied, there is a 
verification process, very time-consuming.
    Senator Bennet and I recommended cutting these 108 
questions to two. President Obama in his budget has endorsed 
this idea and said he has found 30 or 40 questions. You and I 
working together might find some more.
    If we simplify this form, if we move--which would require 
legislation--the data to the junior year in high school instead 
of the senior year, these are all very common-sense, non-
ideological issues.
    So my question is, would you be willing to sit down with 
Chancellor Kirwan and Chancellor Zeppos, who led this study, 
and listen to them and their recommendations about what you and 
the department could do to implement the dozen of the 59 that 
the department by itself could do? And would you be willing to 
work with Senator Mikulski and me and Bennet and Burr and 
Senator Murray to try to implement this simplification of what 
the report called a jungle of red tape?
    Secretary Duncan. Absolutely. We think there is really good 
stuff in the report. Our staff has actually looked at it pretty 
closely. We have not met with them yet, so if you want to help 
facilitate that, that would be fantastic.
    But whatever we can do here to remove red tape, to stop 
wasting time, to stop wasting dollars, we should absolutely do.
    There are a couple of recommendations that our staff has 
already looked at that we think we can move on potentially 
pretty quickly. So we are starting internally to get behind 
this.
    And in a bigger picture, if we can get to a good spot on 
ESEA, getting to a good spot on HEA reauthorization will be 
like a walk in the park, in relative terms. So there is a lot 
of fertile ground here going forward.
    Senator Alexander. Well, Senator Murray and I are ready for 
a walk in the park after No Child Left Behind.
    No, seriously, we look forward to that. Thank you very 
much.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Secretary.

                       ON TIME COLLEGE COMPLETION

    I wanted to talk again about college education, making it 
more affordable. I want to talk specifically about finishing on 
time for full-time undergraduates. I know the University of 
Hawaii has worked very hard with their P-20 initiative and with 
the department to try to enable kids to finish.
    It is not just the annual cost of college, but it's how 
quickly, as a practical matter, kids are able to finish. Some 
of that has to do with the counseling they get in their 
freshmen year. Some of that has to do with availability of the 
courses they need.
    But I would like you to talk about that because we tend to 
focus on the interest rate in the Congress, and we tend to 
focus on the Pell Grant level. And then sometimes we talk about 
the retail price, but none of that matters, if it takes you 5 
or 6 years to finish.
    Secretary Duncan. First of all, Senator, I just want to 
say, we have seen a huge amount of innovation and great work 
coming out of Hawaii. You should be so proud. That was a State 
where we invested early on in Race to the Top. Lots of folks 
thought that was a huge mistake on our part. Candidly, I had my 
own concerns and trepidation.
    It has been amazing to see on both the K-12 side and early 
childhood, as well as the higher education side, what your 
State is doing. So I just want to thank folks for their courage 
in really challenging orthodoxies and doing things differently 
in some pretty profound ways, getting much better results than 
many places and improving faster than many other States. So 
again, we just love what we are seeing there.

                           FIRST IN THE WORLD

    So obviously, whatever we can do to reduce the time it 
takes to obtain a degree, that is the whole point of the First 
in the World competition, looking at competency-based, looking 
at better support, as you said.
    There is so much good work going on around the Nation where 
we can invest, as I said before, where we can scale up what is 
working. We think that is a hugely important role to play. 
Whether it's a first-time full-time student or whether it's a 
29-year-old single mom with two children trying to go back to 
school to climb the economic ladder, whatever we can do to get 
more people into college, but, more importantly, get them that 
degree at the back end and get them in position to get a better 
paying job, we have to do that.
    That is why we think programs like First in the World are 
so critically important. Again, there was so much greater 
demand in the 2014 competition than there were dollars 
available. We would like to be investing in many more 
institutions of higher education that are taking very seriously 
their role, not just to enroll students but to help them 
graduate and graduate as swiftly as possible.

                         COLLEGE ACCREDITATION

    Senator Schatz. I appreciate your work in the area of 
coming down on some of the bad actors among the online degree 
granting institutions. But I'm wondering whether we can come at 
some of those challenges from the accreditation side, because 
as the chairman of the subcommittee mentioned, they get their 
accreditation and then we move on and try to clean up after 
it's all done.
    I'm wondering whether you have the authority under the 
statute to kind of come after some of these bad actors with 
minuscule graduation rates, awful outcomes on pretty much every 
level. I guess I'm wondering why they are accredited in the 
first place.
    Secretary Duncan. I think that is a fair question. In some 
of these situations, the accreditation process, we are looking 
at very, very closely to see what we can do to challenge folks 
and to raise the bar.
    So I'm happy to continue the conversation off-line with you 
and your staff. But we have a team that is looking at that 
piece of the higher education puzzle very, very intently.

                       NATIVE LANGUAGE EDUCATION

    Senator Schatz. Thank you. And in Hawaii, we are doing some 
pretty innovative work among native Hawaiian educators. And 
students and families have played a really critical role in 
advancing the native language education. But, as you know, 
unfortunately, mainstream English-based standards, assessments, 
and teacher training requirements often undermine efforts of 
native communities to use their languages in schooling.
    I'm wondering what you can do at the department to better 
support access to and fair assessment of education through the 
medium of native languages.
    Secretary Duncan. So as I'm sure you know, we recently 
granted a waiver request to your Hawaii Department of Education 
to pilot the development and administration of new assessments 
in native languages.
    Again, what is happening there has relevancy in many other 
States around the Nation. So we really appreciate the 
leadership and thoughtfulness there.
    Please challenge us and hold us accountable for being a 
good partner, and we will see what develops there. We know that 
what develops there has implications in many other places, so 
we are very interested and supportive of that work.
    Senator Schatz. Thank you.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Schatz.
    Senator Cassidy.
    Senator Cassidy. Mr. Secretary, thank you for the call 
yesterday. As I mentioned, my interest is dyslexia.

                         PROGRAMS FOR DYSLEXIA

    What specific programs does the department fund for 
dyslexia?
    Secretary Duncan. I don't think we have a specific program 
for dyslexia. Children with dyslexia have special education 
needs that fall under the IDEA bucket where we have pretty 
significant resources.
    Senator Cassidy. If I can interrupt just for a second?
    Secretary Duncan. Absolutely.
    Senator Cassidy. So dyslexia is 80 percent of learning 
disabilities, and maybe at least 50 percent or maybe more of 
those who cannot read. This is all epidemiological data, peer-
reviewed, et cetera.
    So it strikes me if it is 80 percent of those with learning 
disabilities, 20 percent of the general population, why in the 
heck don't you have a special program for dyslexia? Do you 
follow what I'm saying?
    Secretary Duncan. It is a fair question. Again, that is 
something for Congress to think about.
    Senator Cassidy. So you are suggesting Congress should give 
a special emphasis?
    Secretary Duncan. I'm not suggesting. I'm just saying 
Congress can look at this. There are many children with special 
needs, and we are trying to ask for more resources. Obviously, 
a significant portion of those resources go to help children 
with dyslexia.
    Senator Cassidy. Do you have any sense of the quality of 
programs currently in schools addressing the needs of 
dyslexics?
    Secretary Duncan. I think it would be varied and mixed. I 
think there are some schools, some communities, and some 
districts that do an extraordinary job of early identification 
and support.
    Senator Cassidy. Now, granted, there is always going to be 
a spectrum.
    Secretary Duncan. Yes.
    Senator Cassidy. But do we have a sense of where the mean 
is? If not the mean, the median?
    Secretary Duncan. Yes, I would say much better than 10 or 
15 years ago. There is heightened awareness.
    Senator Cassidy. That is a low bar, man.
    Secretary Duncan. That may be true. Is there more that we 
can and should be doing? Absolutely.
    Senator Cassidy. So in your dream of dreams, what would be 
done to actually improve the screening and intervention for 
those with dyslexia? If you tell me that currently there is no 
single office looking at it, there is no--Senator Mikulski 
speaks about the 1 percent. I'm speaking about the 20 percent. 
And she is speaking about those who might succeed no matter 
what we do or don't do. I'm speaking about the 20 percent that 
will not succeed, quite likely, unless we do something.
    Now I just have a sense that this has been kind of ``may 
happen, may not.'' But there has not really been that sort of 
supervision to make sure, not like you are doing for the for-
profit colleges, for example. You know there is a problem and 
you are going to go in and look at it. Here I have a sense it's 
more along, well, maybe it happens, maybe it doesn't.
    Secretary Duncan. No, I think our Office of Special 
Education Programs is doing really good work there. Again, it's 
a fair critique. Do we have enough resources put behind 
children, whether they have special needs or whether they are 
extraordinarily gifted? I think it's a very fair critique that 
we are not investing enough in either population.
    For us to invest more, we clearly need your help and 
support.

            SCREENING AND EDUCATOR TRAINING IN DISABILITIES

    Senator Cassidy. Now that said, I would argue it's a little 
bit more than investment because I do think that there is a 
lack of awareness. I have read about RTI and I read about 
others that think we should screen differently. Those that 
criticize and praise RTI, both say that there must be a general 
faculty understanding of what dyslexia is or otherwise the 
child gets to the fourth grade and cannot read and, at that 
point, intervention is less profitable.
    So is there any sense that there is a general faculty 
understanding in more than a small fraction of schools?
    Secretary Duncan. So these are complicated issues. I don't 
want to blow through them. They are really important issues.
    We have about 1,400 schools of education, and so if you 
wanted to have a general or universal faculty understanding, 
once they enter the classroom, I would argue that is a little 
bit late in the game. That general understanding should happen 
well before that.
    I think to really get to the root of that, the honest 
question would be, what are our schools of education doing in 
this space?
    Senator Cassidy. I got that. But, of course, on the other 
hand, if we just say wait until those who are currently in 
school become aware of the issue, then we are really speaking 
about 30 years from now before we replace all those who are 
currently active and then no longer would be.
    So I just say that as kind of, oh my gosh, we need a 
cohort, and not just a current cohort, we need all cohorts to 
be engaged.
    But I think it also kind of answers my question, because I 
really have a sense that most educators are not aware of this 
and have not received training dollars to be made aware of it. 
So if it takes a general faculty engagement, it is like we have 
met the enemy and it is us.

                        PROFESSIONAL DEVELOPMENT

    Secretary Duncan. We invest in professional development and 
we would like to invest more. I also argue publicly at many 
places that the money we put behind current teacher 
professional development, not future teachers, is often poorly 
spent and not spent on things that teachers are really looking 
for.
    Senator Cassidy. It seems like it's reasonable that 
Congress would give some direction, if we see a need that is 
addressing 20 percent of the population and probably at least 
50 percent to 60 percent of those who read below grade level, 
that we would give specific direction that it shouldn't just be 
an amorphous, ``Here's a pot of money. Spend it as you wish.'' 
But, ``We have a specific national need. Please address,'' much 
like conquering HIV or going to the moon. I don't know your 
thoughts on that.
    Secretary Duncan. There are many children with special 
needs. Many children facing real challenges. For me, it's not 
about picking out this population or that population. It is how 
you give every single one of those children----
    Senator Cassidy. I accept that, but in times of limited 
resources, one has to be somewhat directed.
    So if you have one that is 80 percent of the LD community, 
it seems more likely you would focus.
    Secretary Duncan. So many of your colleagues are looking 
for us to be less directed. I just want to be clear about that.
    Senator Cassidy. Okay, I yield back. Thank you.
    Senator Blunt. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your leadership in putting 
forth a budget that supports investments in the learning 
continuum from early childhood to career.
    I want to start by focusing in on one stage in that 
continuum, and that is high school, while acknowledging that 
every stage of that education continuum is vitally important.

                          HIGH SCHOOL REDESIGN

    Your fiscal 2016 budget calls for a $125 million investment 
in our high schools to ensure that these schools can redesign 
to meet student's needs. I'm concerned that too many high 
schools are failing to help their students make it even to 
graduation. Even those who do graduate may not be armed with 
the skills they need to enter post-secondary education, 
training, or the workforce.
    For example, in my State of Wisconsin, there are 13 high 
schools that fail to graduate a third of their students.
    Earlier this year, I introduced the Next Generation High 
Schools Act to allow high schools to redesign and innovate to 
better meet student needs and increase rigor in coursework, 
particularly in the workforce critical areas of science, 
technology, engineering, and mathematics, the STEM fields, and 
career and technical education.
    So, Mr. Secretary, can you speak to the need to focus on 
and invest in our high schools, specifically, and the necessity 
to have a dedicated program like the bill I described, the Next 
Generation of High Schools act that supports students and 
prevents dropouts?
    Secretary Duncan. I just really want to thank you for your 
leadership and passion on this. And let me take a step back.
    When you have high schools, whether they are in Wisconsin 
or anywhere in the Nation, to say the reverse of what you said, 
where two-thirds of students do not graduate, those are dropout 
factories. We have to take that problem on. We have to 
challenge the status quo. We have to do some things very, very 
differently.
    I have visited many high schools that a couple years ago 
were dropout factories and have now turned around, have 
transformed. None of them are perfect yet. This is an ongoing 
process, but we have seen remarkable changes.
    I met with a young man here last week who was from a high 
school in Miami that was historically a dropout factory, and 
they have totally changed the culture there now, in 2 or 3 
short years.
    So same children, same families, same building, same 
socioeconomic challenges, same neighborhood, but radically 
different results. So I would like to follow up with you very 
directly. The outcomes of those 13 high schools are 
unacceptable. We need to look at that very, very significantly.
    We have put resources, as you know, behind school 
improvement grants. We have seen many schools turn around, but 
clearly we have a ways to go.
    And to state the obvious, when young people drop out of 
high school today, there are no good jobs, none in the legal 
economy for them. So we just can't passively stay on the 
sidelines. So your leadership is so important.
    Many young people drop out of high school, not because it's 
too hard, but because it's too easy, and they're bored. They 
don't see the relevance.
    So the more we are redesigning high schools and helping 
young people understand what to learn in class, what the tie is 
in the real world and to real jobs, when they are engaged, when 
they are excited about coming to school, you see those dropout 
rates go down pretty precipitously. We have seen this in many, 
many high schools around the Nation.
    So while, again, I'm so proud that high school graduation 
rates are at all-time highs and dropout rates are down, our 
dropout rate is still unacceptably high for the Nation. When 
you have high schools like that, it's untenable for us to stand 
on the sideline and just see that continue to happen.
    So no easy answers, but we should look very carefully at 
those 13 schools and what is going on in the community and what 
is going on in the feeder schools. We have to do something 
better.
    And your leadership on these issues to redesign high 
schools, to get many more resources there, and have the work 
there be more relevant to the real world, it's absolutely the 
right thing to do.
    Senator Baldwin. I definitely am going to take you up on 
continuing to work together to advance these proposals and see 
them reflected across the country.

                       AMERICA'S COLLEGE PROMISE

    I have just a couple seconds left, actually, so I know we 
are not going to get into this fully. But I wanted to hear a 
little bit more about the community college program.
    I actually offered an amendment during our budget 
resolution markup to put this into action. But right now, and 
perhaps in follow-up to this hearing, I want to hear more about 
the department's vision for the America's College Promise, how 
it will ultimately save student and taxpayer dollars, and sort 
of how you envision this proposal supporting the vital 
contribution also of technical colleges and tribal colleges?
    Secretary Duncan. I know we are over time. I will try to be 
very quick.
    Is that okay, Mr. Chairman, if I answer?
    Senator Blunt. Go ahead and do a quick answer there. There 
will be a second round.
    And the 11 o'clock vote has now been eliminated, so there 
will be no 11 o'clock vote.
    Secretary Duncan. Do you want me to wait?
    Senator Blunt. We will have a second round. Just in case 
Senator Baldwin has to leave, go ahead.
    Secretary Duncan. Yes, sir. Just very, very quickly.
    I'm just a huge fan, as is the President, of our Nation's 
community colleges. I have been to dozens of the most inspiring 
visits where you see 18-year-olds, 38-year-olds, and 58-year-
olds all retraining and retooling.
    They are like baby United Nations. You have people from all 
over the world coming to learn and to get better.
    Green energy jobs and IT jobs, advanced manufacturing, and 
healthcare, this is the path, the route to upper mobility, to 
the middle class, and to the jobs of tomorrow, not the jobs of 
yesterday.
    So the idea of making these community colleges free and 
giving, whether it's young people or middle-aged people, the 
chance to get the skills they need to be productive citizens to 
support their families, we think makes all the sense in the 
world.
    We would simply partner with States that are doing more. 
Again, this isn't the President's idea or my idea. This is 
really coming from Senator Alexander, from Tennessee, that has 
done this at scale. And while it's very early, the outpouring 
of interest has stunned them. It's far beyond what they 
anticipated.
    This is absolutely an investment, not an expense. Tribal 
colleges and universities would be a part of this. Tribal 
colleges do an amazing job, as you know, on shoestring budgets.
    So whatever we can do to strengthen community colleges, 
provide more people access. I think too many folks in rooms 
like this don't understand is that often, while, relatively 
speaking, they are cheaper today, just the cost of childcare or 
transportation or gas or buying books can literally stop 
somebody from taking that step.
    We just want to eliminate those financial barriers and give 
hardworking folks a chance to get the skills they need to climb 
the economic ladder.
    Senator Blunt. Senator Lankford.
    Senator Lankford. Secretary Duncan, thank you. I have quite 
a few questions. Let me just try to go through several of them.
    One is, you and I have spoken before about the waiver and 
the issue with No Child Left Behind. It is the importance to 
replace No Child Left Behind, because my State of Oklahoma has 
obviously dealt with this extensively with your department, but 
every State has had to deal with the waiver process.
    I appreciate your cooperation in trying to get a complete 
replacement of this so you do not have to deal with the 
constant waiver battles back and forth.
    I also appreciate some of the comments that Senator 
Alexander made about the FAFSA. For any person who has a junior 
or senior in high school, and they get that form, the very 
first question is, why are they asking all these questions? 
What does it matter? And why is the Federal Government 
collecting this amount of information on my particular student?
    Any work that can be done to simplify that form I think is 
extremely important, for multiple reasons. But if we discourage 
people from engaging in that process by the sheer length of the 
form, we are doing them a great disservice. So I would 
encourage that.
    I do want to spend a little more time on what Senator Blunt 
was talking about with the college rating system, and I wanted 
to dig into that a little bit as well.
    In your budget, is there a detail of the cost to develop, 
implement, and sustain the college rating program that is 
currently going through right now, including some sort of 
estimate of legal costs? Obviously, this is going to be 
challenged tremendously, and I would assume your department is 
aware of that.
    Is there an estimate in your budget somewhere that I'm 
missing of the cost of developing and sustaining this ratings 
program?

                         FAFSA SIMPLIFICATIONS

    Secretary Duncan. So let me back up quickly on the FAFSA. I 
couldn't agree more. I would just say, we reduced about a third 
of the questions early on in the administration. Clearly, we 
have more work to do. We feel really proud about that. We have 
average completion times down to under a half hour. So we have 
made some progress, but have a long way to go. Again, we look 
forward to partnering with you.
    Senator Lankford. Yes, completion time vs. gathering all 
the forms required to actually do the completion is a different 
thing, because there is quite a bit they have to be able to 
gather to pull that together.
    But that's a different issue.
    Secretary Duncan. No, we have some work to do and look 
forward to doing it with you.
    To your point, just to state the obvious, completing that 
form unlocks $150 billion in grants and loans each year. If you 
don't fill that form out, you're locked out, so that cannot be 
a barrier.
    And you are exactly right. In too many places, it still is 
a barrier, an impediment to those resources. So we have to do 
that.

                         COLLEGE RATING SYSTEM

    Again, just to repeat, on the college rating system, we are 
still developing this. I'm happy to sit down with the chairman.
    Senator Lankford. Is that something in the budget 
currently? Is there a section there? Can you tell us----
    Secretary Duncan. There is not a huge section. This is not 
a high-cost item. This is us sort of thinking it through. I'm 
much less worried about it than you are. We can talk through 
the concerns or whatever.
    This would be a modest effort to try to get more 
information and more transparency.
    Senator Lankford. Is there a spot that you are all looking 
at and saying here's where the statutory authority comes from 
to do it, based on either previous budget statements coming 
from this committee saying, hey, we are going to allocate some 
funds and time and full-time equivalents (FTEs) to be able to 
help prepare a rating system? Or from the previous 1979 
document saying this is within the purview of the Department of 
Education to be able to do it?
    Secretary Duncan. I think the appropriate role for the 
Federal Government or State government or local government 
should be around transparency, and I think this is a massive 
play around transparency.
    Senator Lankford. Sure, which has traditionally been the 
State responsibility that oversees the State colleges or 
private entities.
    Secretary Duncan. Again, this isn't overseeing. And as you 
know, people aren't just picking colleges in their State or 
their locality. This is national.
    And if we can get more information, again, I can't tell you 
how many conversations I have had with young people and their 
parents where they just don't have good information.
    Senator Lankford. I understand that. I have high school age 
kids myself as well.
    Secretary Duncan. So you are living this.
    Senator Lankford. I am, and so I'm very aware of that.
    I would just ask that you would submit to the committee any 
kind of budget work that has already been done to try to build 
towards this, the dollars, FTEs, that you have set aside to 
start researching and preparing this rating system. Obviously, 
you have spent some time going through it.
    And any estimates that you have, as you start to guess out 
the cost of some of the litigation in the future, that would 
help us in the decisionmaking process in the days ahead, as we 
start allocating funds.

         ESEA FUNDING FOR SCHOOLS SERVING SPECIFIC POPULATIONS

    I need to shift subjects to you as well. As we are talking 
about a replacement for No Child Left Behind, which again I 
completely encourage and I'm glad to participate in that 
process, one of the areas that has come up in No Child Left 
Behind is that children in homeless families have to be 
mainstreamed into schools. If they are segregated, they are not 
eligible for any Federal funding in that school.
    So a school like Positive Tomorrows in Oklahoma that 
targets helping homeless kids that have a very difficult time 
engaging in mainstream schools, public schools, because of 
their spotty attendance and everything else, have no access to 
those funds.
    Is that something that we can work together to try to 
resolve, so that we have an ability for homeless children, that 
specific population, so at least schools that are targeted to 
reaching them are not excluded?
    Secretary Duncan. It is a great question. I'm not familiar 
with that school in your State, so I'd like to learn more. 
There is a school in San Diego, San Diego County, that I am 
more aware of that seems to have done some pretty remarkable 
work.
    It's a complicated issue. You never want to stigmatize 
kids. You never want to separate them. But there are tremendous 
additional challenges that some schools are doing a great job 
of helping to meet.
    I would love to have a further conversation and learn more. 
I did not know about that school.
    Senator Lankford. There is a tremendous asset to being able 
to help those students because there are some very unique 
environments there.

                        NOT-FOR-PROFIT SERVICERS

    And if I could ask one more question just for the record as 
well, the loan servicing issue, there have been some changes on 
that. Now 25 percent of loan servicers will be not-for-profit, 
and it's capped at that amount.
    I'd be interested in just getting some background on why 
the 25 percent number was capped for not-for-profits. Why not 
just have the open competition and allow those that are quality 
servicers? I know I'm out of time on that, but if I could get 
that submitted for the record, that would be helpful.
    My hope is that it doesn't set the not-for-profits up for 
failure by capping the amount for loan servicing for the 
multiple companies that are doing it.
    Secretary Duncan. Just very quickly, going forward, I think 
in September, we are looking at performance. Based upon 
performance, we will be doing reallocations.
    Senator Lankford. Okay, thank you.
    Senator Blunt. Are you all clear on the question he asked 
about money being spent on this rating system? You are going to 
submit the information and response to that question? Money 
spent, money you anticipate spending?
    Secretary Duncan. Yes, happy to provide it.
    Senator Lankford. And FTEs.
    Secretary Duncan. This is just part of what folks are doing 
so. There is no big budget. There is no big whatever. But I'm 
happy to----
    Senator Lankford. I just assume, as you are thinking it 
through, you are committing some FTEs to it, as you're thinking 
it through. And you are also having a look out on what is going 
to be the court costs that are possible on this.
    Again, we have to plan on funding. If that is going to be a 
funding issue in the days ahead, dealing with higher education 
and court costs, we need to know.
    Senator Blunt. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. It is nice to have you in front 
of the committee.

                           GAINFUL EMPLOYMENT

    I want to follow-up on a question that the chair was 
talking about on the gainful employment regulation.
    You mentioned, I think, the purpose of the gainful 
employment rule in terms of weeding out the bad actors for the 
for-profits. Understanding that that occurs and that is a lofty 
goal, but you mentioned that it wasn't just for the for-
profits. So I want some clarification on that.
    Are you saying that this goes to public institutions, 
liberal arts schools, community colleges? Are they subject to 
these kinds of metrics? Do they have to report these? And how 
do they compare out when you look at the for-profits that are 
doing it the right way, which we happen to have in our State?
    Secretary Duncan. The gainful employment rule does apply to 
certificate and nondegree programs at public and private 
nonprofit institutions.
    Senator Capito. So just taking that further, at a public 
institution, if you are getting a 4-year degree in social work 
and you have a certain amount of debt and obviously that is one 
of those entry-level jobs--unfortunately, because it's so 
important--that comes in rather low on the scale, those 
metrics, you are not getting that?
    Secretary Duncan. No, again, it doesn't matter whether 
folks are going to high-income jobs or low-income jobs. We just 
want that debt to be manageable and for them to be in a better 
spot.
    Senator Capito. Agreed.
    Secretary Duncan. And in some places, that absolutely 
happens. In some places, the opposite happens.
    And to be very clear, the vast majority of for-profits are 
getting 88, 89, 90 percent, sometimes even more of their 
revenues, from you and I, from taxpayers.
    So there is this massive public subsidy. And if it's 
something leading to better outcomes, that is an honest 
conversation to have. But when it's leading to worse outcomes, 
we can't support that.
    Again, if you look at the findings we put out on one of 
those institutions this week--and again they have a chance to 
reply. And if we are wrong, we'll say we're wrong.
    But what we found was stunning and deeply, deeply 
disturbing, deeply troubling.
    I just want folks on both sides of the aisle to be eyes-
wide-open on this. To stick taxpayers with this and to leave 
disadvantaged folks in a worse position, that is not what any 
of us get up every single day to do, I don't think.
    Senator Capito. I agree. I don't think I'm getting up every 
day to do that either.

                          ACTUAL COLLEGE COSTS

    I am going to switch over to another question on student 
loans. This is something that really bothers me. I have run 
into numerous students, parents, and people in institutions in 
the financial aid offices who try to get the metrics of what it 
actually costs for whatever institution it is. Let's say it's 
$15,000, with the students eligible and can loan up to $25,000. 
You are looking at somebody who maybe might want to buy a car, 
a vacation, has extra needs, all these kinds of things separate 
from their educational costs. Then in the end, you hear about 
the very large amounts of student loans.
    What can we do about that? Who can we empower to make sure 
that we are getting more reasonable decisions? That is just a 
very troubling statistic. I think it's pretty prevalent.
    Secretary Duncan. It is an issue. Our staff have looked at 
it very closely. I'm happy to follow up with you off-line. But 
one thing we are trying to do is to empower those financial aid 
counselors at universities to provide very clear guidance.
    Senator Capito. Right. We worked on the House on a 
transparency issue. I mean, I think that would help. But I just 
see that some of the sums, they are astronomical. But when you 
look at the actual cost as calculated----
    Secretary Duncan. That is a piece of the puzzle. Again, 
these issues are much more complicated than that. There are 
other things at play.
    But looking at this whole ball of wax where student debt is 
higher than we would like it to be, we need to think about all 
these pieces that can contribute to reducing that debt.
    Senator Capito. Right. Right.

           EARLY CHILDHOOD EDUCATION AND HEAD START PROGRAMS

    Another question I had, which is different than that, is on 
early childhood. And I'm a believer in early childhood. Our 
State of West Virginia has pre-K. It's mandatory for each 
school to offer, but it's not mandatory for children to attend. 
But I think it has some pretty decent attendance.
    You have said numerous times throughout our testimony, if 
we had the resources, we could do this. If we had the 
resources, we could do that.
    Understanding that is an issue, you have Head Start sitting 
there an established program. I have been a supporter of Head 
Start even, though it has had some troubled issues. I'm very 
concerned, as we move more into pre-K, with Head Start here, 
having its issues and other issues an established government 
program has, political and otherwise, how are we going to make 
sure the resources are actually used efficiently, directed at 
the student and the family? And we are not going to end up 
fighting for the resource for the same child?
    Secretary Duncan. We work in very, very close concert with 
Health and Human Services (HHS) and with Secretary Sebelius 
prior, Secretary Burwell now. So of all my worries, that is not 
on the list.
    We have to think about a 0 to age 5 continuum. It starts 
with early home visiting and other things.
    Head Start was focused more on 3-year-olds, and pre-K is 
focused more on the 4-year-olds. There are ways to do this and 
work together so we are not fighting over kids or resources, 
but making sure there is a continuum, a seamless continuum of 
opportunities birth through 5.
    Senator Capito. Right. And then you have Head Start that 
has facilities in different areas, not necessarily in the 
school. They have their own buses.
    And I'm not picking on that. I just want to make sure we 
are maximizing what we have.
    Secretary Duncan. Yes. And to be very clear, what we would 
love to do is have this not developed by us here in Washington 
but at the local level. So we are agnostic on facilities, 
whether they are schools or whether they are Head Start 
facilities or whether they are nonprofits or YMCAs. There are 
lots of different places. When I ran Chicago Public Schools, we 
had pre-K in many different places.
    So this would be developed at the local level. Just again, 
for me, what is the problem we are trying to solve? The problem 
we are trying to solve is far too many children and families 
who desperately want these opportunities do not have them today 
because they don't happen to be wealthy.
    Senator Capito. And one of the reasons we don't want the 
resources to not reach them is because we are competing with 
HHS over here.
    Secretary Duncan. That has been 0 percent of the 
discussion. We have worked in concert with them on everything. 
All the grants we've done around early childhood education we 
have jointly administered with HHS.
    So I think, again, not that we do things perfectly, but I 
think we have, frankly, modeled an extraordinarily good 
partnership that didn't happen before.
    So take that one off your worry list.
    Senator Capito. Okay, I will take that off my worry list.
    I am just going to fly one other comment that I think has 
to be on a list of concerns moving forward, because the way 
education is changing in every aspect, but particularly higher 
education, is all the online, the competition for online.
    It has been really interesting for me to see the way it 
grows. And keeping an eye on accountability and other issues 
and competition I think of as a real challenge in the future. 
Thank you.
    Senator Blunt. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And, Secretary Duncan, thank you for being here today and 
for your service.

                       COMPETITIVE GRANT FUNDING

    I continue to hear concerns about the department's 
prioritization of competitive grant funding for programs.
    As I'm sure you're aware, New Hampshire is a small State. 
It is relatively, if we look at all the States in the country, 
we have a good school system. We have average, relative, high-
income levels.
    On the other hand, we still have pockets, particularly in 
rural areas, where we have real poverty, real challenges with 
our schools. So can you talk about how we can ensure that 
States like New Hampshire that may not rank so well on the 
scale for competitive grants can still get help for programs 
that we need help on, particularly some of the support for 
reading, for elementary school, the Title I program, others, 
where we have real challenges because the formulas that we have 
often benefited from are not as robust as they used to be in 
terms of funding?
    Secretary Duncan. It is important for this committee to 
know the facts. In the 2016 budget request, 92 percent of our 
resources are formula-based--the overwhelming majority, $.92 on 
every dollar. We are asking for 8 percent on the competitive 
side, but that is obviously the minority investment.
    We don't see these things as in competition or conflict at 
all. We see them as absolutely complementary. We have seen in 
virtually every place where we have done competitive work, 
whether it's on turning around underperforming schools, whether 
it's the Investing in Innovation fund, or Promise 
Neighborhoods, we have seen significant rural participation.
    Just one quick example, New Hampshire, your State, has done 
some amazing work on thinking about assessments in a very 
different way.
    Senator Shaheen. They have done very well.
    Secretary Duncan. You guys are leading the Nation, and we 
are partnering very closely. Again, maybe a small State, but 
there some real assets, there are some real strengths to that.
    What you guys have done, frankly, might be impossible in a 
larger State. So there are huge assets and different strengths 
and weaknesses in different sized States.
    So please hold us accountable for being a good partner 
there. But we have worked very, very hard. And the work that 
your State is doing I think is very important not just for the 
children and educators in New Hampshire.
    If it goes well--that is a big if; they will have 
challenges--it has very significant national implications.
    So we feel good about our ability to partner with big 
States, small States, rural, urban, whatever. I understand the 
concerns. But candidly, I think we have managed that pretty 
well.
    Senator Shaheen. Well, I certainly appreciate your nice 
words about the work on assessments in New Hampshire. I think 
it is a place where the State has done a great job and provides 
a model.
    Secretary Duncan. There is a thoughtfulness and depth of 
commitment and expertise that, frankly, we have not seen any 
other place. And they are far, far ahead of other folks.
    That is fantastic. Other people can learn from you. But 
there is some real potential there that our team and I find 
pretty exciting.

                        STEM AND FIRST ROBOTICS

    Senator Shaheen. I was pleased to see that you have spoken 
out about FIRST, which is another great program that started in 
New Hampshire with Dean Kamen, the robotics competition. They 
are having their national finals this weekend at St. Louis, so 
hopefully we will see New Hampshire do well in those finals.
    But one of the things, having been a teacher, that I 
appreciate is that all students don't learn with a teacher 
standing in front of the classroom lecturing, and that the 
opportunity for hands-on education is very important. It is one 
of the things that FIRST and other programs like FIRST do for 
students.
    So what is the department thinking about, in terms of how 
to really ensure that every school can have a FIRST team or 
similar kind of team, where the students can do hands-on work 
with mentors, get into the STEM subjects in a way that 
sometimes they are not able to do when they are in the 
classroom?
    Secretary Duncan. First of all, I would just say I'm a huge 
fan of Dean Kamen and what he has created.
    Senator Shaheen. Aren't we all?
    Secretary Duncan. What he has created, it's just amazing. 
For folks who haven't seen it, they fill stadiums with students 
doing extraordinarily exciting work, and all the cheering and 
all the noise and excitement that you traditionally see in 
athletics contests. I think it is actually much more important 
and valuable.
    Senator Shaheen. It's sort of Einstein meets Michael 
Jordan.
    Secretary Duncan. So people who haven't been to one should 
go see one and soak it in.
    We don't have any direct funding there. It would be great 
if every not just high school, but middle school in the Nation 
had a robotics team. I think that would be amazing.
    So I'm a big, big fan. We don't have a direct funding 
stream for it. They can use resources that we have to support 
it.
    It is actually extraordinarily low-cost. This is not a big 
ticket item. And the benefits for students I think are amazing.
    So whatever we can do to support and to be a strong 
cheerleader advocate--I have been out a couple times. I'm not 
going this weekend, but it is amazing to see the impact it has 
had.
    Senator Shaheen. It is, and as we are looking at ESEA, we 
are hoping that there might be some language we can get in that 
would support programs, not just FIRST, but other programs like 
that that are hands-on.
    So I know that the chair and ranking member are looking at 
those issues as they are looking at ESEA.
    Secretary Duncan. If more students had those opportunities, 
that would be a fantastic thing at lots of levels.

            RE-COMPETING CONTRACTS OF STUDENT LOAN SERVICERS

    Senator Shaheen. It would be.
    Mr. Chairman, if I can just make one final comment. I know 
that Senator Lankford asked about the servicer loan 
organizations and that, Mr. Secretary, you said you would be 
looking at re-competing contracts in September and looking at 
the numbers, the volumes that you will allocate.
    I would just urge you to look at the good job that many of 
those servicer organizations are doing. We have one in New 
Hampshire that does great work. I would rather support them as 
a not-for-profit than support some of the for-profit 
organizations that are doing that kind of work.
    Secretary Duncan. I appreciate that. We are just trying to 
do it strictly on performance. I'm happy to share our metrics.
    Senator Shaheen. That would be great. Thank you.
    Thank you, Mr. Chairman.
    Senator Blunt. Thanks, Senator.
    I have a few more questions. I have a couple, and maybe 
more than a couple, but I will ask a couple then go to Senator 
Murray and Chairman Cochran, if we have any more, and then back 
to Senator Shaheen, if she has more she wants to ask.

                IMPACT AID PAYMENTS FOR FEDERAL PROPERTY

    On Impact Aid, Mr. Secretary, you asked for level funding 
for Impact Aid in a budget that basically asks for a 6 percent 
increase in total. I think we had a vote on this during the 
Budget, and overwhelmingly, Congress suggested that the goal of 
these Impact Aid programs and the PILT program and other 
programs where we are replacing money that would be there if 
this were privately owned property, should we get that money to 
a level as near as possible approximates what a private 
taxpayer would pay.
    So it does seem to me that level funding for Impact Aid, if 
everything else was level funded, would not hear complaints. 
But the priority here doesn't seem very high.
    Then you take the payments in the Federal property program, 
which is $67 million, $1 million of that goes to Missouri 
schools, and you put that in your own facilities maintenance 
program. Surely, you don't really expect that.
    Secretary Duncan. I will take the second half and then give 
it to Tom. On the first half, I'm really happy to have that 
conversation.
    Senator Blunt. What do you have, Tom? Twelve buildings that 
this facility money would go to?
    Mr. Skelly. There are still 12 buildings that are owned by 
the Federal Government. We would like the local school 
districts to take those over, but they think that some of the 
schools haven't had the proper maintenance and upkeep on them. 
So we would use the $67 million from the payments for Federal 
property program for the upkeep of the buildings so that they 
would be in good shape to be taken over by the local schools.
    Senator Blunt. The $925,000 that goes to really, in almost 
all cases, really small districts in my State, that what you 
are doing with that money, you are taking care of 12 Federal 
buildings instead of giving them the $925,000?
    Secretary Duncan. We are trying to get rid of these 12 
buildings, to be clear. But again, we are happy to have----
    Senator Blunt. To be clear, you zeroed out the payments in 
the Federal property program and moved it to the facilities 
management program. That is to be clear, what you did.
    Mr. Skelly. That is exactly right.
    Secretary Duncan. That is exactly right. Again, the goal is 
to eventually move these properties from us to local districts. 
Local districts don't want them today.
    Mr. Skelly. The other argument for the $67 million, and you 
might not agree with it and your folks wouldn't, is that the 
districts lost the property tax base because of a Federal 
activity. Those Federal activities in the property program 
aren't ones that have resulted in a lot of kids going to 
schools. They are parks and things like that where the property 
tax base is reduced, but there weren't kids being served.
    We have supported over $1 billion for the Impact Aid 
program in the areas where they are having an impact on the 
student enrollment in the district. But what we understand is 
that most of the schools that applied under the property 
program before 1970 did lose property tax revenue because they 
can't charge the Federal Government for the property tax, but 
they are not serving a lot of kids in those areas.
    So you might want to ask them if there is an argument 
against that that would help us in developing future budgets, 
because we have repeated this proposal a couple years.
    Senator Blunt. Well, there are a number of arguments 
against that. One is that they still have to run the long bus 
route through that entire area to pick up kids that are either 
in the middle of the area or on the other side of the area. The 
fact that if the Federal taxpayer wasn't there, whether there 
are kids there or not, somebody would be paying a property tax.
    I think there are lots of arguments, and I will be 
surprised if that part of the budget is the way you submitted 
it.
    Secretary Duncan. We are happy to have a conversation.
    Senator Blunt. All right.

                 COLLEGE RATING SYSTEM AND TRANSPARENCY

    Back to the college ratings program, which I'm glad Senator 
Lankford asked the questions he did to get information on that, 
but a lot of these, I know I have one clipping in front of me 
now where you all put out a list of 56 Missouri schools and a 
number of others who people should be aware of because they 
were under heightened cash monitoring.
    Now, that is a trailing indicator. I think those numbers 
are all 2 years old, and a number of things there would 
indicate maybe that is like all these ratings may be, it may 
not be not all that good.
    I think Sweet Briar had the perfect score right before they 
announced they were not going to be in business next year. 
Sweet Briar in North Carolina had a 3.0. Harvard dropped to 2.3 
during the recession.
    I think a lot of these ratings are going to have those same 
kinds of problems.
    But, Tom, you look like you want to respond to that?
    Mr. Skelly. Not a lot, but, I would say, Sweet Briar is in 
Virginia, not North Carolina.
    Senator Blunt. You're right. You're right.
    Mr. Skelly. But they did decide to close on their own. It 
wasn't because of the cash management regulations.
    Some of those cash management regulations are minor things. 
We put out several different categories, some that the schools 
just didn't complete an audit on time. For example, I think 
there are some 40, 45 in Minnesota. It wasn't a major problem 
for them. It is just something to look out for.
    Senator Blunt. Well, it's a major problem like the ratings 
will be a major problem if somehow your school is suddenly 
rated by some matrix of not filling out the form, or something 
that maybe matters at the Department of Education, but really 
doesn't matter in terms of whether the school continues to 
produce a quality student and a quality product.
    So we are going to continue to talk about this until you 
give up on this.
    Senator Blunt. Yes, Secretary.
    Secretary Duncan. Let me just, from a broader, 
philosophical standpoint, it's a fair conversation to have. 
Again, I really respect your deep expertise in this area.
    I think a pretty important role that we can play is one 
around transparency. So what we did--and not everyone agreed 
with this, and candidly, not everyone inside our own department 
agreed with this--but not too long ago, we put out the list of 
universities that we are looking at where there are allegations 
around sexual assault. And an allegation is not a proof of 
guilt. And we do the investigations and sometimes we find real 
problems. Sometimes we clear a place.
    But I thought, personally, it was important to have that 
information in the public sphere.
    The same on heightened cash management. It is an issue. It 
means different things. But for us to be withholding all this 
information from the public, not being transparent, I think a 
really important role of government is to be clear on these 
types of things and to have the public conversation and the 
debate.
    But when we hold all the cards and don't share that with 
the public, I don't think as a public servant, we are doing a 
good job.
    So in lots of these areas, the more we can get honest, good 
information out there and where we need to adjust metrics or 
have that conversation, we should absolutely do that. But I put 
this in the broader category, maybe you disagree, but I thought 
it was important to be public and to be clear about where we 
were looking at allegations.
    Senator Blunt. Areas that might not be available, maybe we 
ought to talk about whether the accreditation process itself is 
transparent enough, available enough.
    Secretary Duncan. I would love to have that conversation.
    Senator Blunt. Good.
    Senator Murray.

            OFFICE OF CIVIL RIGHTS SEXUAL ASSAULTS CASELOAD

    Senator Murray. Mr. Secretary, I was actually pleased to 
see that your budget proposed a significant increase for the 
Office of Civil Rights (OCR) so that it can address its backlog 
of investigations and reduce the amount of time that it takes 
to respond to a complaint and keep up with increasing 
workload--all things that, of course, make our college campuses 
safer.
    OCR now receives about 10,000 complaints a year. That is up 
from 2010. Its budget is still underfunded and below, actually, 
pre-sequestration levels. Their workload includes investigation 
of sexual assault on campus, which are complex investigations 
and take a lot of time.
    So I wanted to ask you today, can you explain to our 
subcommittee how that increased funding you requested will help 
to reduce the backlog?
    Secretary Duncan. Yes. This is a really important issue. 
These are just really hard, difficult issues that we struggle 
with every day. Again, your honest feedback is really helpful.
    But as you said, we have gone from about 6,000 complaints 
in 2008 to over 10,000 in 2016. I don't have any evidence to 
back this. I don't necessarily think there are that many more 
sexual assaults happening. I just think people know that we are 
open for business and taking this seriously. Far too often, 
victims felt no one would listen and no one would pay 
attention. It was swept under the rug. Those consequences, 
psychologically and emotionally, are pretty devastating.
    So it is a good thing that people now know that we take 
this very, very seriously, but it has created an extraordinary 
workload for our team. In fact, we have less staff than when 
this started.
    I think one thing we owe these universities, but more 
importantly, the individuals, is to try to bring these to 
resolution as quickly as we can. This is absolutely traumatic, 
both for the alleged victim and also for the alleged 
perpetrator. If something bad really happened, we owe it to the 
victim to not go through this for 2 or 3 or 4 years. If the 
alleged perpetrator is, in fact, innocent, we owe it to that 
perpetrator to not have them go through trauma for a couple 
years.
    So we are just trying to bring these to a thoughtful but 
relatively speedy resolution. And we, frankly, cannot keep up 
with demand. It is as simple as that.
    I wish our budget for this was zero. I wish there were none 
of these cases. I wish we weren't in this line of work. That is 
not the reality, unfortunately, on far too many of our college 
campuses, and we have an obligation to work as thoughtfully, as 
consistently, as honestly, and as speedily as we can to try to 
deal with hugely traumatic issues. That is just the reality of 
where we are today.
    Senator Murray. Okay, thank you. I really appreciate that. 
I understand the need for additional dollars. You're right. We 
need to make sure that both the victim and the perpetrator have 
an answer.
    What do you do at these colleges, if you do find victims 
who rightfully need a remedy? What do you do on the campuses?
    Secretary Duncan. Again, I'm just so proud. We don't do 
perfectly, but I think our Office for Civil Rights has done an 
amazing job with this. You've seen this issue enter the public 
dialogue. You've seen this on magazine covers, where 
historically it was swept under the rug. You have seen 
universities change their policies and practices in pretty 
significant ways.
    So we think there has been a seachange here. Now, there is 
a long way to go. We have to keep learning. We have to keep 
getting better together. But you see more and more universities 
sort of embracing these difficult, complex issues, not hiding 
from them, and trying to come up with policies and practices 
that, again, have a process that leads to the right outcome, 
wherever the facts may lead.
    So we have done some very, very significant work. I go back 
to my earlier point. I think the fact that we have been so 
transparent on this has helped. There are some challenges 
there, but it has created a huge amount of movement.
    And it's not only young women. There are young men, too, 
but it's disproportionately young women. And many more are 
feeling safe in extraordinarily difficult situations to have 
their voice be heard. I think we owe it to them and to their 
families to listen.
    Senator Murray. I think your emphasis is correct. Students 
leave college for a lot of reasons. Feeling insecure and unsafe 
should not be one of them. So thank you.

                           SALLIE MAE REVIEW

    One last question. Last May, during a Budget Committee 
hearing on your 2015 budget, we talked about the issue of a 
Sallie Mae alleged violation of the terms of the Servicemembers 
Civil Relief Act. Sallie Mae settled with the Department of 
Justice in that situation. And you promised that you would 
pursue every avenue, if laws were broken, and review all of 
your service providers for compliance with the law.
    It has been a year since our conversation, so I wanted to 
know what the results of that review were.
    Mr. Skelly. Senator, we are checking on all those reviews 
and it looks like, by May 1, we will be finished with reviewing 
all the servicers and finalizing that agreement with Sallie Mae 
and Navient.
    Secretary Duncan. So stayed tuned, the next 2 weeks.
    Senator Murray. The next 2 weeks. Are you confident that 
the Federal Student Aid's (FSA) review is thorough and 
objective and will identify any issues of denial of benefits 
owed to our servicemembers and veterans?
    Mr. Skelly. It looks like they've been very, very thorough 
on it, and they're putting veterans' needs at the top of their 
list.
    Secretary Duncan. If you look at the work they did leading 
up to the announcement earlier this week on a slightly 
different issue but on an institution, they did very, very 
thorough, thoughtful, comprehensive work.
    We don't rush to judgment on these issues, in these 
situations. And they have a lot on their plate, but they are 
working very, very hard.
    Senator Murray. Okay, we look forward to seeing that very 
soon. And thank you.
    Secretary Duncan. Yes.
    Senator Blunt. I have two more quick things.
    One is on gainful employment. I think under the proposal, 
the department estimates approximately 1,400 career training 
programs serving 840,000 students would not initially meet the 
standard you are proposing.
    I think the standard is a 3-year out-of-school standard. 
Would they meet it if it was a 5-year out-of-school standard? 
Are you looking at what point many or most of these schools 
might meet the standard? Would they never meet that standard?
    Secretary Duncan. My honest take on this is that when we 
are clear--and again, I think this is not a high bar. I would 
say this is a relatively low bar. But when we are clear on 
that, you see behavior change in pretty significant ways. And 
these are all projections going forward.
    Again, we have maximum transparency. Every institution has 
these facts. We think we will see more good programs grow, and 
we will see bad programs either change or go away. We think all 
those outcomes--more good programs is fantastic. Bad programs 
improving, that is fantastic, or bad programs being eliminated. 
Those are all positive outcomes.
    So I'm actually pretty hopeful about where this thing goes.
    Senator Blunt. So would you envision a school financial 
officer would begin to say, don't major in art history?
    Secretary Duncan. No, no, no. No, this is very different. 
This is at the program level.
    Again, there are institutions that have 50 or 100 programs. 
So this is just trying to say, at the program level, do 
graduates have a good chance at having a better financial 
future, or are they saddled with debt that they can never pay 
back?
    There is huge variation across programs and between 
schools. And we are just trying to make sure people take, 
again, yours and my huge investment in tax dollars every single 
year--often 90 percent or more of the revenue is coming from 
us--and using it for good rather than for just pure profit.

                              STUDENT DEBT

    Senator Blunt. I did also think Senator Capito's points 
were points that we ought to be talking about. Of the debt 
problem when you get out of the school, how much of that 
related to the actual cost of going to school, and how much 
related to what you thought your living standard should be 
while you went to school? I'm pretty confident that, over the 
years, the student expectations for their personal living 
standard at school often increased beyond where they would have 
been just a few years ago.
    Secretary Duncan. It may be a piece. I, candidly, don't 
know whether that is a huge piece of the puzzle, but we should 
be looking at all of these things. Again, I'm happy to have 
that conversation and share our data.
    Senator Blunt. I would like you to look at your data on 
that and see. I think it may be a bigger piece of the puzzle 
than we think, when you accumulate some of the debt. At schools 
that don't even have that high of a tuition number, a books 
number, even an on-campus living number, you can still see 
students graduating with debt that you wonder how that debt 
accumulated.
    The last thing I'm going to ask you to do is I would like 
you to provide a year-to-year summary of marketing and 
advertising expenses for the department over the last 3 fiscal 
years. This relates to a topic I have been interested in, 
whether we should specifically identify that this is a 
taxpayer-funded marketing effort. And it would help me to know 
how needed that is, if we knew what your marketing and 
advertising expenses for the department were.
    Secretary Duncan. We don't do a whole heck of a lot of it 
at all, but we would be happy to provide you with that.
    Senator Blunt. It should be easy to comply then.
    Secretary Duncan. We would be happy to do it and provide 
you with that.
    Senator Blunt. Chairman.
    Senator Alexander. I have nothing further.
    Senator Blunt. Mr. Secretary, thank you and your staff for 
your time today. And we look forward to working with you. As 
you can tell, there is a lot of interest on this committee in 
what you do. And it's important to the country what you do. We 
are grateful to have your time and your patience today.
    Secretary Duncan. Thanks for your leadership, and thanks 
for the opportunity.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Thank you.
    The record will be open for any questions to be submitted 
in writing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
                      defining gainful employment
    Question. The Department estimates that under the Gainful 
Employment regulation 1,400 programs serving 840,000 students (99 
percent of which are at for-profit programs) would be classified, at 
least initially, as failing. This would jeopardize these programs' 
eligibility for Federal student financial aid funding. The 
Administration and the Congressional Budget Office (CBO) both estimate 
that at least some of these students would not go on to attend other 
post-secondary schools, which is an indication that these career 
training programs often serve students that other post-secondary 
schools are not currently serving. Given the number of students 
impacted, and that Congress and the Department have never defined 
``gainful employment'' in statute or regulations previously, do you 
think Congress should have an opportunity to weigh in on what the 
Higher Education Act means by ``gainful employment'' prior to 
implementing such an extensive regulation? Do you think 2- and 4-year 
degree programs at public and private colleges and universities should 
be held to a similar standard? If applied to 2 and 4-year degree 
programs, has the Department estimated how many programs would fail to 
meet this same standard?
    Answer. The Department remains committed to increased transparency 
and accountability across all of higher education and will continue to 
explore policies that are most appropriate to achieve this goal. The 
gainful employment regulations apply to programs and institutions that 
are required by law ``to prepare students for gainful employment in 
recognized occupations.'' The regulations are intended to address very 
specific concerns regarding these programs: too many gainful employment 
programs, particularly those offered by for-profit institutions, are 
leaving students with unaffordable levels of loan debt in relation to 
their earnings and too many of those students are defaulting on their 
Federal student loans. While we are troubled by rising costs and 
increasing levels of debt across all of higher education, our data show 
that these problems are most acute for the programs subject to the 
gainful employment regulations. The Department has not estimated how 
many 2- and 4-year degree programs at public and private not-for-profit 
colleges and universities would fail to meet the gainful employment 
standard because program level data is not currently available for 
traditional 2- and 4-year degree programs. We appreciate that Congress 
may have a strong interest in addressing the uses addressed by these 
regulations in the reauthorization of the Higher Education Act (HEA) or 
other legislation and we look forward to working with Congress on its 
legislative proposals. However, in light of the numerous concerns about 
the poor outcomes of students attending many gainful employment 
programs, the risk they pose to the Federal interest, and the 
Department's statutory authority to protect students and taxpayers, we 
do not agree that the Department should not take, or should defer, 
regulatory action on this basis.
                         college rating system
    Question. The Administration announced the plan to develop a 
college ratings system in August 2013. Over 15 months later, in 
December 2014, the Department released a ``College Ratings Framework'' 
that still does not include specific details on exactly what metrics 
will be used, or how the proposed ratings system will be used. However, 
the Department still plans to release a college ratings system before 
the 2015-2016 school year. Given the obvious challenges in developing 
such a ratings system, why continue to go forward with the plan to 
release a college ratings system before this next school year?
    Answer. The Department is continuing its work on the college 
ratings project, including providing new data about college performance 
that will be helpful for students and families before the 2015-2016 
school year. Throughout that process, we have worked to evaluate the 
best ways to provide useful information to students and families that 
can help inform their choices about college. We have held public 
meetings and one-on-one sessions with thousands of stakeholders, and 
received hundreds of written comments from student advocates, officials 
from institutions, and other members of the higher education system. We 
are paying very close attention to the diverse needs, resources, and 
missions of institutions across the higher education system. The 
Department is listening closely to these comments and suggestions, and 
our final product will reflect the input of the higher education 
community.
                    budget for college rating system
    Question. How much funding has the Department spent on developing 
the ratings system in previous years, and how much does it plan to 
spend in fiscal years 2015 and 2016?
    Answer. To date, the Department has spent $1.9 million on the 
college ratings project. This includes approximately $85,000 on events 
and outreach to the higher education community and others (e.g., the 
National Center for Education Statistics (NCES) symposium hosted in 
February 2014, and the open forums held around the country in 2013-
2014). This also includes $1.8 million spent by the Department for 
contractor assistance on several components of the project including 
Web site design. The total value of contractor assistance is $4,053,870 
over 3 years. However, this amount would cover the cost of all core and 
optional activities as proposed by the contractor. The Department is 
currently working to determine which activities the contractor will 
carry out. Additionally, the Department is continually assessing what 
other costs, if any, would be needed in fiscal year 2015 or fiscal year 
2016.
                     preschool development program
    Question. The Department of Health and Human Services provides $8.6 
billion for Head Start and approximately $5.3 billion, in discretionary 
and mandatory funds, for the Child Care and Development Fund. States 
spend another approximately $5.5 billion on State-funded preschool 
programs. Given these other large Federal programs, and significant 
State funding, what can be accomplished with a relatively new $250 
million Preschool Development Grant program that provides competitive 
grants to States to develop or expand preschool programs?
    Answer. Despite the existing programs that provide child care and 
pre-kindergarten programs for children, there is still tremendous unmet 
need in this country for access to high-quality preschool. Parents know 
and want what is best for their children, but there are simply not 
enough affordable, high-quality slots for children to attend these 
programs. Nationally, nearly 60 percent of our Nation's 4.1 million 4-
year olds don't attend any publicly-funded preschool program. In almost 
every State, the unmet need for early learning is enormous. For 
example, in Pennsylvania, 6,700 children are waiting for openings in 
the State preschool program; in Colorado, districts report that over 
8,000 eligible children cannot be served; and in Michigan, Governor 
Snyder reported last year that 29,000 needy preschool age children 
didn't have an opportunity to go to subsidized preschool.
    The demand from parents is not just for more preschool options for 
4-year olds--it's for high-quality early learning opportunities from 
birth through age 5. That unmet need is not just in cities, but in 
suburbs and rural communities all across the country. The number of 
applications that the Department received from interested States speaks 
to the need for additional funding for both preschool slots for 
children and quality improvement efforts at the State level.
    To further respond to this need, a key purpose of the Preschool 
Development Grants program is to leverage improvements in the quality 
of State early learning systems, including changes that can help 
increase the effectiveness of the larger existing Federal investments 
in early childhood programs.
        plan for states when preschool development funds expire
    Question. To the extent this program is funding slots for children 
to attend preschool, what happens when this funding for States goes 
away, as is intended?
    Answer. The Department is committed to funding projects that will 
be sustained beyond the grant period. Accordingly, we included in both 
the Development and Expansion grant competitions a selection criterion 
regarding the sustainability of the project and how the State will 
ensure that it will maintain the number and percentage of children 
served after the grant period ends. Furthermore, the Department expects 
that the quality improvement efforts that States will undertake will 
extend beyond the grant period and have a continuing positive impact on 
State early learning systems and services to children and families.
           coordination of early childhood education programs
    Question. How do you ensure the Federal Government is supporting a 
well-coordinated system of early childhood care and education, and not 
duplicating efforts or creating a complicated system of overlapping 
programs, eligibility standards, and reporting requirements?
    Answer. We share your concern about the potential to duplicate 
efforts, and our Preschool for All proposal is designed to reduce 
duplication of Federal programs. For example, as more 4-year-olds are 
served by Preschool Development Grants and Preschool for All programs, 
we anticipate that Head Start centers will serve a larger share of 
infants, toddlers, and 3-year-olds, thereby reducing any duplication in 
programs. In addition, HHS is working to strengthen services to 
children birth through age 3 through new investments and reforms in 
Head Start. These joint efforts are essential to reaching our goal of 
providing universal preschool for 4-year-olds from low- and moderate-
income families, while at the same time strengthening existing programs 
across the continuum of early learning from birth through kindergarten.
                     title iv additional servicers
    Question. Currently the Department is choosing to allocate 75 
percent of new student loans to the four Title IV Additional Servicers 
(TIVAS), and 25 percent to seven not-for profit servicers. Why create 
this arbitrary distinction, and why not just allocate loans to all 
servicers based on performance and capacity?
    Answer. On January 1, 2015, we began providing allocations of new 
borrower accounts to the Not-For-Project (NFP) servicers through the 
Common Origination and Disbursement system. From that point, NFP 
servicers have received 25 percent of all new borrower accounts. As the 
allocation process is new to the NFPs, this percentage was established 
to minimize risk to student and parent borrowers and allow time to 
ensure that all the NFP servicers are fully able to meet all 
requirements and expected service levels, including financial reporting 
and reconciliation, prior to receiving larger volumes of new accounts. 
We will re-examine this percentage for the allocation period beginning 
in September 2015.
              limited selection of student loan servicers
    Question. Similarly, when a student consolidates their student 
loans and they get to pick their loan servicer, why do they only get to 
pick from the four TIVAS. Why not allow the student to pick from all 
eleven servicers?
    Answer. The responsibility for most elements of originating and 
servicing new consolidation loans was competitively awarded to the four 
Title IV Additional Servicers in fiscal year 2013, as part of the 
transition from the expiring Common Services for Borrowers contract. As 
this contractual arrangement is already in place and provides 
sufficient capacity to provide the required services for all estimated 
consolidation volume over that period, we do not plan to award 
additional contracts to service new consolidations at this time. To do 
so would incur additional expense, create additional risk, and add 
operational complexity.
       department of education marketing and advertising expenses
    Question. Hardworking taxpayers deserve more transparency and less 
over-reach from their Government especially when it comes to how 
Washington spends their tax dollars. Please provide a year-by-year 
summary of marketing and advertising expenses for the Department over 
the last 3 fiscal years, including the primary programs involved in 
such marketing activities and their primary objectives?
    Answer. In fiscal years 2012 and 2013, the Department of Education 
did not spend any funds on marketing and advertising activities. In 
2014, the Department spent a total of $27,865: $15,996 to contract for 
a marketing plan and campaign for a video series to help show teachers 
and educators how the Department's initiatives are improving and 
transforming classrooms across the country; and $12,898.76 to assist 
the Department with radio interviews that would enable the Secretary to 
share relevant success stories and highlight the local leadership that 
is making reform happen in schools.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                explanation of impact aid level funding
    Question. Mr. Secretary, in its fiscal year 2016 Budget Request, 
the Administration proposes a $3.6 billion increase for the U.S. 
Department of Education. Could you explain why Impact Aid was not 
prioritized for an increase, especially given the strong Congressional 
support for this important initiative? The Administration consistently 
touts the importance of supporting military families and very rightly 
so yet the most important education program that keeps the doors open 
for many of these school districts is not prioritized for an increase 
in this budget request.
    Answer. The Department takes seriously its responsibility to 
provide continuing support for the longstanding Impact Aid programs, 
and our total request for fiscal year 2016 is nearly $1.3 billion, the 
same as the fiscal year 2015 enacted level and an increase over the 
$1.2 billion requested in the President's 2015 budget. In addition, 
participating Impact Aid districts would receive an estimated $3.1 
billion in Title I funding under our fiscal year 2016 request, an 
increase of $220 million over the fiscal year 2015 level for those 
districts.
          college rating system applied to community colleges
    Question. I have visited with the leaders of several colleges in my 
State to get their insight on the Administration's effort to implement 
a ``ratings'' system for institutions of higher education. These 
leaders tell me they believe in quantitative measurements of 
performance. In fact, some of these colleges have their own key 
performance indicators that chart progress in areas such as graduation, 
persistence, student success, and cost. And, assessment of these 
indicators is a primary factor in how the job performance of these 
Kansas college administrators is evaluated.
    Using community colleges as an example, these schools are unique as 
they reflect the demographic and economic conditions of the areas they 
serve. Consequently, to apply a statewide or nationwide performance 
metric regarding graduation, or persistence, to community colleges 
invites very real discrepancies and inconsistencies between the 
institutions' ratings. How is your Department taking these differences 
between community colleges into account as it works on its ratings 
system?
    Answer. The Department is continuing its work on the college 
ratings project, including providing new data about college performance 
that will be helpful for students and families before the 2015-2016 
school year. Throughout that process, we have been paying very close 
attention to the diverse needs, resources, and missions of institutions 
across the higher education system. We have held public meetings and 
one-on-one sessions with thousands of stakeholders, and received 
hundreds of written comments from student advocates, officials from 
institutions, and other members of the higher education system. We are 
listening closely to these comments and suggestions. Throughout the 
process, we have been working to develop a system that will, in part, 
recognize and reward institutions that serve disadvantaged students 
well, providing an affordable college education that helps them pursue 
their goals and find success.
                   community college graduation rates
    Question. I have heard concerns from Kansas community colleges that 
the Federal graduation rate significantly understates the actual 
completion rate of their students. In part, this is because transfers 
are counted as failures, even though we know that preparing these 
students to study at a 4-year institution is central to their mission. 
Community college graduation rates would dramatically increase if 
transfers were included. Will the Department consider options to count 
these transfers-out cases differently in its efforts to obtain data 
regarding college completion rates?
    Answer. The Department is very familiar with the concerns of 
community colleges and other institutions with high levels of transfers 
regarding the development and presentation of completion rates, and we 
share those concerns. To that end, we are evaluating all possible 
options for providing the most valuable information we can, with 
appropriate context. That process includes evaluating ways to give 
colleges credit for their students' success in transferring and 
completing college.
    The Department is also taking steps to improve the federally 
reported graduation rate in other ways. For instance, many community 
colleges serve students who are not enrolled on a first-time, full-time 
basis; yet those students are not included in the cohort for the 
Integrated Postsecondary Data System (IPEDS) graduation rates. To help 
mitigate those exclusions, schools will begin reporting graduation 
rates for their non-first-time (transfer) students and their part-time 
students for the 2015-2016 academic year. The addition of those student 
cohorts makes the IPEDS rates more inclusive and more representative of 
many schools, including community colleges.
     streamline compliance reports to reduce administrative burden
    Question. The leaders of higher education institutions in my State 
tell me they find themselves having to allocate more and more resources 
to fulfilling compliance reports for State and Federal agencies. In 
fact, one institution told me it has two full-time attorneys and a 
paralegal on staff tasked to oversee these compliance efforts. Needless 
to say, this ultimately impacts on schools' ability to deliver their 
product, quality education and training, in the most efficient manner 
possible. What are some ways that State and Federal agencies can work 
together to utilize the same information gathering requests and 
procedures? And, what ways can the Department streamline compliance 
requests and reduce the administrative burden on these institutions?
    Answer. Congress recognized the important role States play with 
respect to institutions of higher education in passing the Higher 
Education Act of 1965. Under the law, in order for an institution to 
participate in Federal student aid programs, a State must authorize 
such an institution located in the State to provide postsecondary 
education, thereby ensuring that it helps to protect students in 
accordance with the State's consumer protection laws. As a result of 
this, and the fact that States differ in terms of how they oversee 
postsecondary institutions in their States, what States require of 
institutions varies. There are clear examples where State agencies and 
the Federal Government work together to utilize the same information-
gathering requests. For example, the Free Application for Federal 
Student Aid (FAFSA) is developed each year by the Department of 
Education, which seeks input from State student aid agencies in 
developing the questions that appear on the form. This is done for the 
purpose of reducing the number of State financial aid forms that 
otherwise might be required for students to complete, and for 
institutions to process, in order to make decisions about how to 
allocate State student aid. Recent innovations with respect to FAFSA 
also serve to illustrate how the Department can streamline compliance 
and administrative burden on institutions. For example, FSA and the 
Internal Revenue Service (IRS) collaborated to create the IRS Data 
Retrieval tool (DRT), which allows applicants to access and transfer 
directly from the IRS the Federal tax data required to complete the 
FAFSA. The tool saves time and increases the accuracy of the data 
submitted. More than 65 percent of students and more than 50 percent of 
parents with available data use the IRS DRT.
    These improvements have not only reduced burden on FAFSA 
applicants, but for institutions of higher education as well. As a 
program integrity measure, institutions are required to verify about a 
quarter of aid recipients at the institutions the information reported 
by applicants on the FAFSA form. This verification requires applicants 
to provide documentation to their institution such as copies of IRS tax 
forms and other information to confirm the information reported on the 
FAFSA. For applicants who use the DRT tool, institutions can be assured 
that they have the most accurate financial data to calculate student 
aid eligibility as it has come directly from the IRS, thereby 
eliminating the effort associated with manually verifying a student's 
and parents reported AGI, taxes paid, untaxed portion of pensions, IRA 
deductions, tax exempt interest income and education tax credit data.
                     improve reporting requirements
    Question. A consistent criticism of the Department of Education is 
that it asks colleges and universities to respond quickly to the 
Department's inquiries and demands, but can often take months, even 
years, to issue its own reports and responses back to those colleges. 
The result leads to schools sometimes facing surprising penalties. For 
instance, in 2013, the Department fined an East Coast university for 
violations that were found in an audit in 1996 and another university 
for violations from a 1997 audit, a 17-year and 16-year time lag, 
respectively. These are not isolated cases. Colleges throughout the 
country can tell similar stories, not just on compliance interactions 
with the Department, but also for approval of new programs. Since this 
practice by the Department severely limits colleges' abilities to plan 
and budget for the future and impedes their ability to seek out 
innovative approaches, what is the Department doing to address these 
challenges?
    Answer. The cases involving violations dating back to 1996 and 1997 
were unique circumstances that involved three interrelated cases 
involving lengthy legal proceedings. The initial case was appealed to 
the Secretary in 2000. As a result, the two cases listed above, which 
were based on similar circumstances, were deferred awaiting outcome of 
the case appealed to the Secretary, which wasn't resolved until 2013. 
These types of extreme delays are quite rare. Some audit, program 
review, and eligibility applications (to include approvals for new 
programs) require extensive follow-up for additional documentation, 
institutional responses to findings, or the need to obtain legal or 
policy guidance. The Department recognizes the importance of timeliness 
in responding to oversight and monitoring actions. We have been making 
changes over the last 2 fiscal years to address some of the challenges 
noted above: we recently consolidated our oversight functions of large 
corporate institutions to provide a comprehensive monitoring approach, 
and we centralized our response to student complaints regarding school 
compliance issues to provide more timely responses. The Department is 
committed to assessing and improving the timeliness of our monitoring 
and compliance actions to better assist our participating institutions 
and the students they serve.
                    teacher preparation regulations
    Question. Of the more than 4,500 public comments submitted 
regarding the Department's proposed teacher preparation regulations, I 
understand that a vast majority were in opposition to the proposal. I 
am concerned about these regulations because colleges in States like 
Kansas could be placed a significant disadvantage. For my State, I am 
concerned with the Department's assumption that all States and all 
institutions have the same capacity for data collection. Similar to the 
Department's college-ratings system proposal, these teacher preparation 
regulations read like a ``one-size-fits-all'' approach that does not 
reflect the true diversity of missions, approaches, and resources that 
exists among American higher education. How can you assure me that the 
teacher preparation regulation will not do major harm to effective, 
good quality education programs, especially at smaller colleges in 
States like Kansas?
    Answer. There was a great degree of public interest in our proposed 
regulations on this issue and the Department is still in the process of 
reviewing the comments we received. As such, we cannot, at this time, 
provide a comprehensive response to your question. However, the 
Department takes the issues you raise very seriously. We are carefully 
considering how to ensure States have significant flexibility in 
designing their systems and evaluating program performance, while also 
offering transparency into the performance of teacher preparation 
programs. Great teachers matter enormously to the learning and to the 
lives of children, and we are dedicated to ensuring the final 
regulations reward effective programs and facilitate continuous 
improvement.
               support for entrepreneurship for students
    Question. As we think about the current fiscal environment, one way 
we can help reduce the Federal deficit is to grow the economy. To do 
this, I have advocated for the need to strengthen our support of 
entrepreneurs given that new businesses account for the creation of an 
average of 3 million jobs each year. Support for entrepreneurship 
begins with developing our next generation of American talent and 
independent thinkers. What specific activities and programs at the 
Department focus on helping students attain the skills necessary to 
become entrepreneurs and compete in a global economy?
    Answer. The Administration's longstanding emphasis on State-
developed college- and career-ready standards and aligned assessments 
has been driven, in large part, by the recognition that we need to 
prepare all students to compete successfully in a global economy 
characterized by near-constant change and innovation. The higher order 
thinking skills, such as critical thinking and problem-solving, that 
are reflected in college- and career-ready standards are exactly the 
skills essential for entrepreneurship. While the Department does not 
administer any programs or activities focused solely on 
entrepreneurship, our $125 million Next Generation High Schools 
proposal would support the kind of rigorous, engaging, and relevant 
education including work-based learning and other career-related 
experiences that can give students the skills and aptitudes needed for 
successful entrepreneurship. Also, the 21st Century Community Learning 
Centers program has supported many locally directed entrepreneurship 
projects over the years that have involved such activities as writing 
and presenting a business plan, identifying sources of funding, 
advertising, and learning how to manage money. For example, States have 
used 21st Century Community Learning Centers funds to make grants to 
support the Young Entrepreneurs Academy sponsored by the Boys and Girls 
Club.
                           trio competitions
    Question. In fiscal year 2015, the Department mishandled the TRIO 
Student Support Services competition. This included a late release of 
the initial grant application, followed by a re-issued application that 
prioritized experimental competitive preferences over actual student 
needs. Ultimately, this Committee along with our counterpart in the 
House included language to the fiscal year 2015 Omnibus Appropriations 
bill to improve timely handling of the competition. What assurances can 
you give me that the Department will meet the statutorily established 
deadline of August 10, 2015, for delivering notification of the results 
of the Student Support Services grant competition? Additionally, how 
will the Department avoid similar problems in the upcoming competitions 
for TRIO's Talent Search and Educational Opportunity Centers during 
fiscal year 2016?
    Answer. We are on track to make all Student Support Services (SSS) 
awards by August 10, 2015. The Department received over 1,800 
applications for SSS grants in the fiscal year 2015 competition. We are 
finalizing the peer review process and expect to make the first slate 
of SSS awards by July 2015. We will then undertake the statutorily-
required second review process and expect to make awards from the 
corresponding second slate by August 10, 2015.
    We acknowledge that our handling of this competition, including 
issues related to both timing and communication, should have been 
better executed. We are committed to addressing and resolving those 
issues in advance of the Talent Search and Educational Opportunity 
Centers competitions in fiscal year 2016.
    We are very excited about the substance of the SSS competition, 
which offered competitive preference priority points to applicants 
proposing projects designed to implement evidence-based strategies. 
Specifically, applicants could earn one additional point for providing 
individualized counseling, an activity explicitly authorized in the 
statute; and two additional points if that individualized counseling 
strategy was supported by quality research. Additionally, applicants 
could earn one additional point for proposing strategies to improve 
students' non-cognitive skills and behaviors (such as perseverance or 
academic mindset), and an additional two points for a non-cognitive 
strategy that was supported by evidence. In order to maximize the 
benefits for students of Federal dollars, the Department believes it is 
essential to continue encouraging the adoption of evidence-based 
strategies throughout our programs.
           individuals with disabilites education act funding
    Question. I understand that the Administration requests a slight 
increase for IDEA funding for fiscal year 2016, and has prioritized 
some formula grant funding over competitive grants, as compared to 
previous budget submissions. However, why not place a greater emphasis 
on IDEA support given the enormous gap in the Federal commitment? Had 
funding for formula programs such as IDEA been a priority in the last 6 
years, do you think we would be in the position we are today shifting 
such a huge shortfall to the doorsteps of States and school districts 
across the country?
    Answer. We recognize the importance of Federal funds in assisting 
States in providing a free appropriate public education to children 
with disabilities. The record demonstrates the Administration's 
commitment to providing formula funds to States and school districts to 
support special education and related to services to children with 
disabilities. For example, over the last 5 years, the Administration 
has consistently requested funding levels for the Grants to States 
program that exceeded the amount appropriated by Congress. In fact, the 
amount provided for Grants to States for fiscal year 2015 is $80 
million less than what was appropriated in fiscal year 2012. The fiscal 
year 2016 request demonstrates the Administration's continuing support 
for States and local school districts working to improve the 
educational and developmental results of children with disabilities 
across this Nation.
    We have spent a lot of time thinking about how, given limited 
resources, we can best support professionals in the field, and we 
believe that our budget request reflects the best way to do that. We 
know that early intervention services and early childhood education are 
critically important to getting kids on the right path, so we've 
requested funds to support those efforts, not only through IDEA 
programs, but also through Preschool Development Grants and Preschool 
for All. Our 2016 request increases Preschool Development Grants 
funding by $500 million, for a total of $750 million. Those funds will 
help lay the groundwork to ensure that more States are ready to 
participate in the Preschool for All program, a 10-year, $75 billion 
mandatory investment that establishes a Federal-State partnership to 
provide all low- and moderate-income 4-year-olds with high-quality 
preschool. These programs, in supporting high quality early learning 
for all students, will also increase the number of inclusive preschool 
settings for children with disabilities.
    While State economies are improving, we recognize that some 
districts still face resource challenges. That is why the Office of 
Special Education and Rehabilitative Services has increased its focus 
on helping people do more with the resources that they do have. Under 
the Department's new Results Driven Accountability framework, we're 
supporting States in identifying high leverage areas of need and 
focusing their work to address gaps in performance. In shifting from a 
focus on compliance to one based on results, we hope to ensure that 
States and districts can more effectively prioritize their efforts and 
improve results for children with disabilities, while doing both more 
efficiently.
                         accounting principles
    Question. I understand that the Department's Financial 
Responsibility Standards were designed to provide a measurement of 
colleges' fiscal health. However, there are at least seven components 
of the these standards where the Department uses a methodology that is 
not compliant with Generally Accepted Accounting Principles nor 
compliant with even the Department's current regulations in other 
areas. I am concerned that all seven of these components disparately 
impact smaller non-profit colleges. Why not use the same accounting 
principles that the institutions themselves are expected to follow and 
respect?
    Answer. The Higher Education Act (HEA), as amended, regulations 
require the institutions to submit the financial statements based on 
Generally Accepted Accounting Principles (GAAP), and prepared per 
Generally Accepted Auditing Standards (GAAS). In addition, the HEA 
regulations govern the composite score calculation, and these 
regulations provide for adjustments to certain financial statement 
amounts. For example, intangible assets, and unsecured related party 
receivables are removed from total assets in the composite score 
calculation. Another example is that unrestricted revenues are used, 
instead of total revenues, when calculating the composite score for 
non-profit institutions. These examples are not all inconclusive. The 
purpose of the composite score adjustments is to assess the risk 
associated with each institution's financial and administrative 
capability to use HEA Title IV funds. GAAP and GAAS do not assess such 
risk exposure or adversity that may exist in the various financial 
statement amounts.
    The `strength factor scores' used in the composite score 
methodology provide for distinctions among different school sizes, to 
make the resulting composite score reflect more fairly the actual 
financial health of each institution.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
            supporting effective educator development grants
    Question. Secretary Duncan, in Mississippi, the Supporting 
Effective Educator Development grant program has been used to train 
hundreds of teachers over the past several years. The positive impact 
that these teachers are having on Mississippi children is impressive to 
me. Can you speak to the importance of setting aside a percentage of 
funds to support evidence-based models that recruit and prepare 
teachers and principals to be successful in classrooms and communities 
across the country?
    Answer. We are committed to continuing to make Supporting Effective 
Educator Development (SEED) grants to support projects with evidence of 
effectiveness that recruit, select, and prepare or provide professional 
development activities for teachers or principals. The Administration's 
budget request for fiscal year 2016 would more than double support for 
the SEED program, increasing funding from $54.0 million to $117.5 
million. Moreover, the Department firmly believes that the strongest 
available evidence should inform educational funding and policy 
decisions. Creating a larger pool of evidence-based activities will 
provide more opportunities to scale up projects that have a history of 
success and to improve educational outcomes for more students.
                        ready-to-learn programs
    Question. Secretary Duncan, in this day and age, children are 
spending more and more time watching television and using digital 
media. Children cannot be in school 24 hours a day, 7 days a week, but 
that does not mean that we should not try to provide educational 
opportunities for them outside of the classroom. It is my understanding 
that the Ready-to-Learn program's grantees have been able to 
demonstrate positive and statistically significant gains in math or 
literacy skills for children who access their educational material. Can 
you speak to the positive impact that effective educational programming 
can have on student academic achievement?
    Answer. The Department is interested in supporting the development 
of transmedia products, including applications and online educational 
games, which demonstrate positive and statistically significant gains 
in math or literacy skills. The Ready-to-Learn Television (RTL) program 
established a performance measure to capture this information. To date, 
the Department has received the results of five of the seven studies 
grantees planned to conduct and has found that all of the studies 
demonstrate positive and statistically significant gains in math or 
literacy skills when RTL-funded properties are compared to similar non-
RTL-funded properties.
                      ability-to-benefit provision
    Question. Secretary Duncan, we have had a lot of students in 
Mississippi who have been negatively affected by the elimination of 
both the ``ability-to-benefit'' and ``year-round'' provisions that had 
been included in the Pell Grant program until fiscal year 2012. In 
fiscal year 2015, we were able to partially reinstate the ``ability-to-
benefit'' provision in a very limited way but the Department has not 
released guidelines on the implementation of the change. Can you please 
provide this Committee with an update on the status of the 
implementation of the change set forth in the fiscal year 2015 Omnibus 
in relation to the ``ability-to-benefit'' provision in the Pell Grant 
program?
    Answer. The Department is finalizing a Dear Colleague Letter that 
will clarify changes made by the Consolidated and Further Continuing 
Appropriations Act of 2015 to the Title IV eligibility of students who 
are not high school graduates. We expect this guidance to be released 
in the next weeks, and it will allow schools to implement the relevant 
changes immediately.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
        institutional reporting requirements compliance calendar
    Question. The Higher Education Opportunity Act of 2008 included a 
provision requiring the Secretary of Education to issue a compliance 
calendar indicating all institutional reporting requirements and when 
each was due. It is now 2015 and the Department has failed to issue 
this calendar. Are you prepared to complete this task and when exactly 
can we expect the compliance calendar to be issued?
    Answer. An electronic announcement was issued February 20, 2015, 
indicating that the compliance calendar was included in the 2014-2015 
Federal Student Aid Handbook Appendix F. The announcement is available 
at: http://ifap.ed.gov/eannouncements/
022015AppendixFInstRptgDisclosureRequireFedStudentAssist
Prgms1415FSAHdbk.html and the Handbook Appendix can be found at http://
ifap.ed.gov/fsahandbook/1415FSAHbkAppendices.html.
   implementating recommendations of the higher education task force
    Question. I appreciate knowing that the Department has begun 
reviewing the Task Force on Federal Regulation of Higher Education's 
report Recalibrating Regulation of Colleges and Universities. The 
report identifies several items which the Department may implement or 
improve on its own and in response today Mr. Secretary, you indicated 
that staff have begun looking at these items. Of those identified, 
which specific items is the Department focused on changing and has a 
timeframe been established for implementation of the Department's 
proposed changes?
    Answer. The Department is examining the Task Force's recommendation 
concerning implementation of a performance-based approach in the 
financial responsibility standards regulations. We are also looking to 
see how we can simplify the verification process. We do not have 
specific timeframes for this work.
              audit process of private collection agencies
    Question. The Department of Education recently decided not to 
continue the contracts for five private collection agencies that assist 
borrowers who have defaulted on their Federal student loans. Please 
outline the process the Department used to determine that it would not 
be continuing these contracts, including the process it followed when 
conducting the audit the Department cited when taking this action. In 
describing the audit process, please provide information including, but 
not limited to: (1) the aggregate numbers of phone calls reviewed, 
calls flagged, and calls with errors for each collection agency; and 
(2) a description of all measures taken to ensure that the call sample 
reviewed for each collection agency was representative of that agency's 
performance.
    Answer. The Department conducted a focused review of the 22 private 
collection agencies (PCAs) and identified 5 that had made misstatements 
to borrowers at an unacceptably high rate. In particular, the 
Department found that these five PCAs gave borrowers inaccurate 
information about the benefits of the Department's loan rehabilitation 
program, including misleading information about the benefits to the 
borrowers' credit report and about the waiver of certain collection 
fees. These misstatements violated Federal consumer protection laws. 
Based on the review, the Department declined to extend the contracts of 
the five PCAs that had made misstatements to borrowers at an 
unacceptably high rate. As you note, the Department did not terminate 
these contracts. The contracts were expiring by their own terms and the 
Department has allowed them to expire, declining to give those PCAs 
award terms that could have extended the contracts.
 transferring of borrower's accounts to new private collection agencies
    Question. As a result of the Department's decision not to continue 
contracts with some private collection agencies, some borrower accounts 
are being reassigned to other agencies. Please describe the process 
that the Department is following to transfer borrower accounts to new 
private collection agencies, including (1) any notice provided to 
affected borrowers, and (2) all measures that the Department is taking 
to ensure that each collection agency has the capacity to handle any 
increase in the volume of work without sacrificing performance or 
compliance with program requirements. In addition, please describe the 
steps that the Department is taking to update the guidance it provides 
to collection agencies regarding the issues for which it found 
compliance errors in its recent audit.
    Answer. In addition to winding down contracts of the PCAs that had 
the highest rates of inaccuracy, the Department is working to ensure 
that the remaining PCAs implement effective corrective actions and 
expand monitoring for these types of issues to ensure borrowers are 
getting effective and accurate information. Accounts that were in 
active repayment at the time the PCA contracts were allowed to expire 
will remain at that PCA in order to avoid disruption for the borrower. 
The rest of the accounts are being removed on a scheduled basis, in 
stages over time. Based upon our planning efforts, including 
communication with our PCAs, we do not anticipate that any of the 
collection agencies will be unable to handle the assigned account 
volumes.
                   addressing students with dyslexia
    Question. Several Senators are concerned with various subgroups of 
students. One prevalent group is students with dyslexia. Please inform 
the Committee of programs within the Department that specifically 
address or focus on students with dyslexia. Please provide any specific 
information on on-going or recently completed research projects that 
have involved dyslexia and Department programs solely or primarily 
focused on dyslexia.
    Answer. As you are aware, dyslexia is a type of learning disability 
characterized by difficulties with specific language skills, 
particularly reading and spelling. In addition, difficulties with other 
language-related skills, such as writing, listening and speaking, may 
be present. The Department does not generally fund programs that are 
focused on a specific disability, except in the case of low incidence 
disabilities required by law. However, the Department does support both 
research under the Institute of Education Sciences and a number of 
grant programs under the Offices of Special Education and 
Rehabilitation Services and Elementary and Secondary Education that 
benefit students with dyslexia and other types of learning 
disabilities. For example, the National Center for Special Education 
Research and the National Center for Education Research in the 
Institute of Education Sciences (IES) support research related to 
improving literacy achievement. In addition, both the Office of Special 
Education Programs and the Offices of Elementary and Secondary 
Education and Innovation and Improvement support grant programs that 
benefit this population. Information about relevant research 
investments and grant programs funded through the Department is 
provided below.
     institute of education sciences programs that address dyslexia
    The National Center for Special Education Research (NCSER) and the 
National Center for Education Research (NCER) in IES support research 
related to improving literacy achievement. NCSER's programs of research 
focus on improving reading, writing, and language skills of students 
with or at risk for disabilities. NCER focuses on achievement more 
broadly to improve educational outcomes for all students; however, its 
work can include improving outcomes for struggling readers and those at 
risk for academic failure.
    Together the IES Research Centers support research designed to 
develop and rigorously evaluate interventions to improve outcomes for 
children with or at risk for reading disabilities, to prevent reading 
disabilities from emerging, and to close the reading performance gaps 
between children with reading disabilities and their peers. They also 
fund research related to the development of valid and reliable 
assessments to identify children with reading disabilities, monitor 
progress, guide instructional decisions, and provide accommodations for 
large-scale assessments.
    The Centers continue to provide significant investment in examining 
cognitive and linguistic processes of reading for children with 
disabilities, as well as typically developing children. Finally, the 
Centers are interested in effective approaches to professional 
development for general and special education teachers and related 
services providers, such as speech language pathologists, who often 
provide reading and language instruction to children with or at risk 
for reading disabilities. The research supported across the two Centers 
covers infants with or at risk for disabilities to adult learners who 
have been identified as having disabilities or are struggling readers.
    It should be noted that the researchers supported by the two 
Centers typically do not define their sample as having dyslexia; 
instead, they prefer to define their sample more broadly as having or 
being at risk for reading disabilities. That being said, research 
projects supported by the two Centers address the language and visual 
processing difficulties that individuals with dyslexia present. For 
example, Dr. Nickola Nelson at Western Michigan University is 
completing validation research on the Test of Integrated Language and 
Literacy Skills to develop profiles of students' spoken and written 
language and literacy strengths and weaknesses. The measure will assess 
vocabulary skills, phonemic awareness, decoding, listening and reading 
comprehension, and writing. Dr. Beth Calhoon at the University of 
Miami, in conjunction with Lehigh University, is conducting a 
randomized controlled trial designed to explore the most effective and 
efficient means to develop reading skills of middle school students 
with reading disabilities. The team is examining the efficacy of two 
versions of a fully developed intervention. Both versions address 
deficits in phonological decoding, spelling, fluency, and comprehension 
skills. However, they differ in the amount of allotted instructional 
time devoted to phonological decoding or comprehension.
    In 2014, IES released a synthesis of the first 8 years of research 
supported by both Centers (see: http://ies.ed.gov/ncser/pubs/20143000/
pdf/20143000.pdf). The synthesis focused on ways to prevent and 
remediate reading difficulties in students with or at risk for 
disabilities and described the Centers' research contributions related 
to assessment, cognitive and linguistic processes of reading, effective 
interventions, and teacher professional development. Major 
contributions described in the synthesis are provided below.
  --Screening all students' reading skills (i.e., universal screening) 
        at the beginning of the school year, especially in the early 
        grades, after which using assessments to monitor their progress 
        can be a valid and efficient way to: (1) identify children who 
        are at risk for poor reading outcomes and (2) guide the 
        decisionmaking process for determining whether an intervention 
        is improving a student's reading skills.
  --Increasing the intensity of interventions in kindergarten and first 
        grade can prevent reading difficulties for many students.
  --Fluency interventions that focus on repeated reading of text, 
        opportunities to practice reading in the classroom, and reading 
        a range of texts can generally improve students' fluency and 
        comprehension.
  --Language outcomes for many preschool children at risk for language 
        disabilities can improve if they are provided extensive 
        opportunities to hear and use complex oral language.
  --Peer-assisted or cooperative learning is a promising method to 
        increase the intensity of instruction for students and 
        improving their reading outcomes.
  --Interventions that are differentiated to target an individual 
        student's profile of component skills are effective in 
        improving students' reading development.
  --Developing teachers' specialized knowledge and supporting 
        consistent long-term implementation of evidence-based 
        instructional practices can improve delivery of complex, 
        evidence-based instruction and interventions.
  --Combining multiple professional development strategies, including 
        coaching, linking student assessment data to instruction, using 
        technology, and participating in communities of practice, can 
        support teachers' learning and implementation of research-based 
        reading instruction.
    The Centers' research support has extended our knowledge about 
helping children with or at risk for reading disabilities. Through this 
research, we have learned more about how to prevent reading 
difficulties through valid and reliable assessments and have developed 
and tested interventions that are targeted, intensive, and based on 
rigorous evaluations so that schools can support learning to read for 
all students. In addition, we are gaining a better understanding of the 
components of reading comprehension and how underlying cognitive and 
linguistic processes operate in a coordinated fashion to support 
reading. This research has also helped to illuminate how children bring 
different and developing profiles of skills to the classroom with 
implications for assessment and instruction. Finally, the research has 
helped to provide new knowledge on ways to bring research-based 
assessment and instructional practices into the classroom by 
identifying and testing ways to improve the effectiveness of teachers 
and their practice.
    IES' Statewide longitudinal data systems (SLDS) program supports 
SEAs in developing, expanding, or improving data systems to efficiently 
and accurately manage, analyze, disaggregate, and use individual 
student data, consistent with the Elementary and Secondary Education 
Act. To date, 47 States, the District of Columbia, Puerto Rico, and the 
Virgin Islands have received awards. A number of States have used SLDS 
funds to develop indicators in their data systems for students with 
learning disabilities. Under the 2015 SLDS grant competition, these 
efforts will be further supported with States being encouraged to apply 
for funds to carry out projects to address up to two of the following 
data use priorities: (1) Financial Equity and Return on Investment; (2) 
Educator Talent Management; (3) Early Learning; (4) College and Career; 
(5) Evaluation and Research, and; (6) Instructional Support. Under any 
of these priorities, States would be able to enhance their ability to 
leverage their SLDS to address the needs of students with learning 
disabilities.
       office of special education programs that address dyslexia
    The vast majority of Federal funding for children with disabilities 
is provided through the Special Education Grants to States program, 
which received nearly $11.5 billion in fiscal year 2015. The Grants to 
States program, authorized under Part B of the Individuals with 
Disabilities Education Act (IDEA), assists States in covering the 
excess costs associated with providing special education and related 
services to children with disabilities.
    In 2013, approximately 39.5 percent (2.3 million) of children with 
disabilities, ages 6 through 21, receiving special education and 
related services under the Grants to States program were identified as 
having a specific learning disability (SLD). Under Part B program 
regulations, a specific learning disability means a disorder in one or 
more of the basic psychological processes involved in understanding or 
in using language, spoken or written, that may manifest itself in the 
imperfect ability to listen, think, speak, read, write, spell, or to do 
mathematical calculations. States annually report the number of 
students in the SLD category that receive services under IDEA Part B; 
but are not required to report data on subtypes within the SLD 
category. However, we are aware that a large percentage of students 
identified under the SLD category demonstrate deficits in reading and 
related areas of language, which can include dyslexia.
    In addition to formula grant funding, OSEP administers 
discretionary grant programs under Part D of the IDEA that support 
children with disabilities. Projects awarded under these programs help 
to improve outcomes for children with disabilities primarily through 
technical assistance, personnel preparation and professional 
development, and model demonstrations. These investments are not 
targeted to specific disability categories (with the exception of deaf 
and deaf/blind which are congressionally-mandated). However, since 
students identified as SLD, including those with dyslexia, represent 
such a high percentage of children served under IDEA, technical 
assistance and training in evidence-based interventions that address 
the needs of SLD students are typically a major focus of projects. 
Below is a list of current OSEP investments that are of benefit to 
students with SLD, including those with dyslexia.
Personnel Preparation Grants: $23.25 million total for fiscal years 
        2011-2014
    During fiscal years 2011-2014, 21 grants were awarded to 
institutions of higher education (IHEs) for teacher, leader, and 
related-services preparation that will benefit students with dyslexia. 
In addition to training teachers to use evidence-based practices, some 
of these projects train speech/language pathologists to meet the 
language needs of students with disabilities, including those with 
dyslexia.
    2014
  --State University of NY: NY
  --Clemson University: SC
  --Florida State University: FL
  --Vanderbilt University: TN
  --University of Cincinnati: OH
  --Washington University: MO
  --University of Tennessee: TN
  --Jackson State University: FL
    2013
  --Miami-Dade College: FL
  --Washington University: MO
  --Florida State University: FL
  --Vanderbilt University: TN
    2012
  --University of Washington: WA
  --University of Texas: TX
    2011
  --University of Connecticut: CT
  --Teachers College, Columbia U.: NY
  --University of Missouri: MO
  --University of Georgia: GA
  --University of Oregon: OR
  --California Lutheran University: CA
  --Syracuse University: NY
State Personnel Development Grants (SPDG): $47 million, 5-year grants, 
        three cohorts--fiscal years 2010-2015, fiscal years 2011-2016, 
        and fiscal years 2012-2017
    Eight grants were awarded from fiscal year 2010-2012 to increase 
the number of trained teachers that provide direct literacy services to 
students with disabilities, including students with dyslexia. The funds 
are used for professional development to train and prepare teachers and 
speech language pathologists as well as doctoral-level training. The 
doctoral graduates generally become university faculty who train more 
teachers as well as conduct research.
    2010
  --North Carolina Department of Education
    2011
  --Connecticut Department of Education
    2012
  --Virginia Department of Education
  --Michigan Department of Education
  --New Hampshire Department of Education
  --Kentucky Department of Education
  --Vermont Department of Education
  --California Department of Education
Adolescent Literacy Model Demonstration grants: $4.8 million total for 
        5 years to be awarded in fiscal year 2015
    The Department plans to award three cooperative agreements to 
establish and operate model demonstration projects that are designed to 
improve the literacy of adolescents with disabilities in middle and 
high school grades. These models must be designed to implement 
evidence-based adolescent literacy interventions for improving reading, 
and locating, understanding, interpreting, evaluating, and using 
written information across multiple content areas. The deadline for 
submitting applications under this grant competition was May 4, 2015, 
and grants are expected to be awarded this summer.
BOOKSHARE for Education: $40 million for fiscal years 2007-2017
    This grant serves students in all 50 States, providing accessible 
materials to children with disabilities. Students with dyslexia who are 
certified as ``Print Disabled'' are eligible for free digitalized 
instructional materials that are text to speech that can assist 
students with reading challenges.
National Center on Intensive Interventions (NCII): $10.4 million for 
        fiscal years 2012-2016
    NCII is charged with providing technical assistance to identify 
interventions that are most effective for students who do not respond 
to Tier 2 instruction under a multi-tiered system of support. This 
Center, which works intensively in RI, MI, MN, and MO, addresses both 
academic and behavioral interventions. Because reading is a significant 
focus of the academic portion of the Center's scope of work, these 
interventions should benefit students with dyslexia. In addition to the 
intensive technical assistance provided to RI, MI, MN and MO, the 
Center reaches students across the country through the provision of 
general technical assistance (e.g., Web postings, product/curriculum 
review, webinars) and targeted technical assistance (e.g., communities 
of practice comprised of multiple States focusing on a particular topic 
such as literacy).
SWIFT (Schoolwide Integrated Framework for Transformation): $25 million 
        for fiscal years 2013-2017
    SWIFT provides intensive technical assistance to SEAs in five 
States (MD, MS, VT, NH, OR), and to LEAs and schools within those 
States, to implement inclusive school reform by aligning resources to 
support the needs of all students in safe, inclusive environments. They 
also provide general technical assistance, such as resource guides and 
best practices, which are posted online and accessible to all States. 
SWIFT supports multi-tiered systems of support to more effectively 
deliver evidence-based instruction in inclusive settings. Reading is 
one of the content areas.
IRIS: $1.5 million per year for fiscal year 2013-2017
    IRIS provides training modules (see: http://
iris.peabody.vanderbilt.edu/iris-resource-locator/) and other 
information for free to States, IHEs, school districts, and schools on 
evidence-based reading instruction, which are used to help teachers 
assist all children with specific learning disabilities, including 
children with dyslexia. These include:

  --9 reading instruction modules
  --2 reading case studies
  --29 information briefs
  --4 interviews related to reading instruction
  --8 video vignettes related to reading instruction

    In addition, IRIS posts on its Web site a fact sheet prepared by 
the Dyslexia Association that includes information on causes, 
diagnoses, and rights for people with dyslexia.
Center on Technology & Disability: $6 million total for 5 years; fiscal 
        years 2014-2018
    The Center on Technology & Disability housed at Vanderbilt 
University provides technology solutions to support evidence-based 
instruction. States, districts, schools, faculty, and students can 
access the content for free.

  --Partners include FHI 360, American Institutes for Research, Parent 
        Advocacy Coalition for Educational Rights or PACER Center, and 
        Adirondack Accessibility.
  --The Center is designed to increase the capacity of families and 
        providers to advocate for, acquire, and implement effective 
        assistive and instructional technology (AT/IT) practices, 
        devices, and services.
  --The Center is a strong advocate for universally designed 
        instruction. Some Universal Design for Learning features may 
        support better outcomes for students with dyslexia.
  --One of the products housed on their Web site is ``The CAST 
        Universal Design for Learning Book Builder''. This is a program 
        that operates on the assumption that all children have a unique 
        style of learning and that their brains process information 
        differently. This program allows digital books to be created in 
        individualized ways to accommodate different ways of reading 
        and learning.
Results Driven Accountability (RDA)
    Since 1975, ED's accountability efforts focused on States' 
compliance with IDEA program requirements. In the 2004 IDEA 
reauthorization, Congress shifted the focus to improving educational 
results and functional outcomes for children. To meet our obligation to 
focus on outcomes, in 2012 the Department began to develop RDA for 
making Sec. 616 State determinations. Many States* identified Reading/
English Language Arts (ELA) as their area of focus for RDA. States were 
required to submit Phase I of a comprehensive State Systemic 
Improvement Plan (SSIP) on April 1, 2015, which included an extensive 
data analysis leading to selection of an educational outcome for 
targeted improvement. Those States which have chosen to focus on 
improving Reading/ELA performance for children with disabilities, 
including children with dyslexia, will submit Phase II of the SSIP in 
February 2016, detailing the activities the State will implement to 
achieve the desired result.
    *States that identified Reading/ELA include: AR, AS, AZ, CNMI, CO, 
CT, DE, FSM, GU, HI, IA, ID, IL, IN, KS, LA, MI, MS, NE, NV, NM, NY, 
OH, OK, OR, Palau, SC, SD, TN, TX, VI, WA, WI, WY
 office of elementary and secondary education and office of innovation 
             and improvement programs that address dyslexia
    These offices administer programs authorized under Titles I, II, 
and III of the Elementary and Secondary Education Act (ESEA). Funding 
provided to States under Title I support the efforts of LEAs and 
schools serving large numbers of children from low-income families to 
help ensure that all children meet challenging State academic 
standards. Under the Title I, Part A, the Department does not direct 
the use of funds toward certain programs or services. However, if a 
student with dyslexia is a low- achieving student in a targeted 
assistance school, ESEA funds could be used to provide direct 
supplemental services to the student, including services for needs 
arising from dyslexia. In a schoolwide program, if the school needs-
assessment indicated that services or programs for students that have 
dyslexia are needed to improve the overall academic achievement of the 
students at the school, then the school could use Title I funds for 
these services.
    States, school districts, and eligible partnerships use Title II, 
Part A program funds to develop and support a high-quality teaching 
force through a broad range of evidence-based activities, which may 
include incentives and support for recruiting, training, and retaining 
highly qualified teachers of students with disabilities and teaching 
specialists in core academic subjects who can provide individualized 
instruction to students with special needs.
    In addition, a number of ED programs, including those administered 
under Titles I, II, and III, help support the integration of 
educational technology into teaching and learning. The Department has 
pointed out in guidance that digital learning can open up new avenues 
for students with blindness, dyslexia, or other print disabilities to 
access educational content. In accordance with Section 504 of the 
Rehabilitation Act of 1973, grant recipients must ensure that all 
digital learning opportunities are fully accessible.
Striving Readers
    These grants provide funding to SEAs, which must make subgrants to 
LEAs and early learning providers to improve the language and literacy 
development of disadvantaged students, a category that includes 
students with disabilities and, by extension, those with dyslexia. The 
needs of disadvantaged students, which could include students with 
dyslexia, must be included in the project design.
Innovative Approaches to Literacy (IAL)
    The IAL program supports high-quality programs designed to develop 
and improve literacy skills for children and students from birth 
through 12th grade in high-need LEAs and schools by using school 
libraries as partners to improve literacy, distribute free books to 
children, including students with disabilities (including dyslexia) and 
their families, and offer high-quality literacy activities. However, 
the focus of the IAL program is on literacy through libraries, not on 
specific interventions, such as those for dyslexia.
Teacher Quality Partnership (TQP)
    The TQP program, authorized under Title II of the Higher Education 
Act, as amended (HEA), supports partnerships between universities and 
high-need school districts that will recruit, train and support new 
teachers and improve student achievement. We have many TQP grantees 
that use their funds to prepare teachers to work with students with 
disabilities broadly. For example, several grantees are preparing 
teacher residents in special education, and others are offering dual 
certifications such as Science-Students with Disabilities, and Early 
Childhood Education and Teacher of Students with Disabilities. Teacher 
candidates in many TQP programs are learning to select and integrate 
assistive technologies in the support of students with disabilities 
both for individual classroom use and in the collaborative development 
of Individualized Education Plans (IEPs). These technologies include 
devices such as audio books, including for students with dyslexia, 
alternative keyboards for students with learning or physical 
disabilities related to writing, and free-form database software to 
help students with memory and organizational difficulties.
Teacher Incentive Fund (TIF)
    The TIF program, authorized under the Departments of Labor, Health 
and Human Services, and Education, and Related Agencies Appropriations 
Act, 2006 (Public Law 109-149), supports efforts to develop and 
implement performance-based teacher and principal compensation systems 
in high-need schools. Grantees are using funds for a variety of 
activities to effectively enhance student achievement so that high-need 
students graduate from high school fully prepared for college success. 
For example, grant funds are being used to improve administrator, 
teacher and counselor effectiveness, including effectiveness of special 
education teachers.
Supporting Effective Educator Development (SEED)
    The Department is authorized to award grants for this competition 
under Division F, Title III of the Department of Education 
Appropriations Act, 2012. The primary focus of the SEED program is to 
train teachers or principals to work in schools with concentrations of 
high-need students, including students with disabilities. In the fiscal 
year 2015 SEED competition, applicants will receive competitive 
preference if they propose to train teachers or principals to work 
specifically with high-need students, including students with 
disabilities. Additionally, there are multiple current SEED grantees 
whose projects are focused on providing professional development to 
teachers to improve their ability to teach writing and literacy skills. 
This focus would allow those teachers to better address the needs of 
students with dyslexia.
Full Service Community Schools
    These grants provide funding to school districts or a non-profit in 
conjunction with a school district to establish wrap around services 
which include opportunities to assess student learning issues 
(including dyslexia) and health needs. Based on need, required 
interventions are provided to students, including support for 
interventions to address dyslexia.
Promise Neighborhoods
    These grants provide funding to non-profit, community-wide partners 
in collaboration with school districts to improve the educational 
opportunities for students and families. Diagnostic work, including 
identification of dyslexia, can be a component of the program. For 
example, work being done by Northside Achievement Zone matches academic 
navigators to the needs of students and families. Students and parents 
with identified health needs are supported with counseling from partner 
organizations. This helps students to remain in high-quality academic 
programs and helps parents to stabilize their household.
Race to the Top-District (RTT-D)
    The Race to the Top-District (RTT-D) program supports local 
education agencies in efforts to personalize education for all 
students. While the program funds are not specifically targeted to 
students with disabilities, the program prioritizes the strategies, 
structures and systems needed to support student-focused approaches to 
teaching and learning that promote excellence and equity for all 
students. RTT-D grantees are equipping teachers to use a range of 
collaborative tools and strategies, such as online learning platforms, 
computers, mobile devices and learning algorithms that deliver 
instruction and just-in-time intervention tailored to the individual 
learning needs and goals of each student, with the aim of preparing all 
students to graduate college- and career-ready.
Race to the Top Early Learning Challenge (RTT-ELC)
    RTT-ELC funds support States in increasing the quality of the 
programs serving children from birth to age 5. States could choose to 
use funds, for example, to increase the quality of early learning 
programs which may serve children with dyslexia. Additionally, States 
could choose to use funds to provide professional development to early 
childhood educators on addressing the needs of children with dyslexia, 
share materials and make referrals to parents of children with 
dyslexia, develop assessments that meet the needs of children with 
dyslexia, and provide screenings for children with dyslexia.
Preschool Development Grants (PDG)
    States who were awarded the grants must ensure quality preschool 
programs that address the multiple domains of school readiness 
including language and literacy development. States must also ensure 
screening and appropriately identifying children with disabilities. 
States must provide for full inclusion of children with disabilities in 
the preschool classes, and ensure that the percentage of children with 
disabilities served in the programs is not less than either the 
percentage of 3-year-old children served statewide through part B, 
section 619 of IDEA (20 U.S.C. 1400 et seq.), or the current national 
average, whichever is greater.
                technical assistance addressing dyslexia
    Question. Please list the number of times over the past several 
years that the Department has provided technical assistance regarding 
dyslexia to schools and an estimate of the percentage of those calls in 
relation to other technical assistance calls received by the 
Department.
    Answer. The Department receives a wide variety of technical 
assistance requests each year related to the education of children with 
disabilities. Many of the technical requests received by the Department 
are related to the implementation of IDEA while others are more 
specifically related to the provision of services to children with 
disabilities. These requests generally relate to learning issues (e.g., 
reading), developmental issues (e.g., early childhood language 
development) or school climate issue (e.g., schoolwide behavior 
systems). Additionally, the various technical assistance centers 
supported by the Department field hundreds of TA requests each year. 
When the Department receives a request for technical assistance, 
including best practices for SLDs, the Department generally directs the 
request to one of the technical assistance providers within OSEP's 
Technical Assistance and Dissemination network whose scope of work is 
consistent with the request. Because of the varied scope and nature of 
all of these requests, the Department does not collect data in such a 
way as to disaggregate technical assistance requests by disability 
category, or a subtype of a disability category such as dyslexia.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
     costs associated with implementation of college rating system
    Question. The Department of Education recently proposed significant 
new areas of responsibility: a proposed college ratings system and 
gainful employment regulations. However, your budget submission does 
not specify how much these complex new systems will cost to implement 
and sustain. I respectfully request that you provide the subcommittee: 
the program name and funding level within each relative program at the 
Department of Education to develop the college rating concept to date 
and how much total money the Department has spent on the development of 
the college ratings, including legal costs and hourly cost of employee 
or contractor time. Please also include an itemized budget estimate of 
both the number of FTEs, anticipated legal costs, and money needed to 
sustain these two systems over the next 2, 5 and 10 fiscal years. If a 
contractor has been or is in the process of being hired to study or 
develop any aspect of a college rating system, please list the 
contractor name and the dollar amount of the contract agreement.
    Answer. To date, the Department has spent $1.9 million on the 
college ratings project. This includes approximately $85,000 on events 
and outreach to the higher education community and others (e.g., the 
National Center for Education Statistics (NCES) symposium hosted in 
February 2014, and the open forums held around in the country in 2013-
2014). This also includes $1.8 million spent by the Department for 
contractor assistance on several components of the project including 
Web site design. The total value of contractor assistance is $4,053,870 
over 3 years. However, this amount would cover the cost of all core and 
optional activities as proposed by the contractor. The Department is 
currently working to determine which activities the contractor will 
carry out. Additionally, the Department is continually assessing what 
other costs, if any, would be needed in fiscal year 2015 or fiscal year 
2016.
    It is important to note that the Department does not keep track of 
the time and portion of an employee's time that is spent on specific 
projects or assignments. As such, the Department cannot provide an 
exact accounting of the number of full-time equivalent employment (FTE) 
that have been assigned to work on the ratings. While the project has 
been staffed by several employees in the Department, it does not take 
up 100 percent of any individual person's time. Staff who do work on 
the ratings project are often given discrete tasks based on their 
expertise (e.g., data analytics, contract oversight, etc.).
Regulatory Requirement Gainful Employment (GE): $16.6 million
    The Department published the GE final rules on October 31, 2014, 
and the rules will become effective July 1, 2015. FSA will use these 
funds to collect and validate student information, implement metrics 
and validation rules, disseminate information related to program 
performance, and support the challenge process. The 2016 request will 
be used to procure a system and support to manage student data 
challenges from institutions, system updates to implement metric 
calculations, data storage, and enforcement processes on FSA systems. 
The system and support to manage student data challenges will support 
GE, as well as other types of data challenges, such as cohort default 
rate challenges.
    FSA also plans to need 30 additional FTE to support the GE 
regulation. These FTE will be in three areas:

  1)  management and oversight of the GE metrics (including 
        implementation within FSA systems as described above);
  2) review and approval of all GE-related challenges;
  3) oversight of school compliance with the GE regulations.
            metric used to calculate debt-to-earnings ratio
    Question. Under the gainful employment regulations, all programs 
offered at proprietary institutions and certificate and diploma 
programs offered at traditional institutions of higher education must 
pass a metric that requires that the estimated annual loan payment for 
a program's graduates must to be less than 8 percent of their annual 
gross earnings, as calculated by the Department of Education. According 
to the Department, the 8 percent represents the maximum amount of non-
mortgage debt that mortgagers use to determine the extent of non-
mortgage debt that can be sustained outside the mortgage. Recent 
graduates, in fact, routinely have debt-to-earnings ratios (DTE) well 
above 8 percent. A recent Department study (NCES: Degrees of Debt, 
October, 2013) found that the average ratio for bachelor degree 
graduates at all schools was 13 percent, and 16 percent for such 
graduates of non-profit schools. Please explain what assessments were 
used to conclude that 8 percent DTE metric is realistic for 
institutions of higher education to achieve, considering that the 
average ratio for bachelor degree graduates at all schools is at least 
5 percent higher.
    Answer. As detailed in the Gainful Employment regulation (79 FR 
64918-22), the Department engaged in an extensive review and analysis 
to determine the appropriate thresholds for the gainful employment 
metrics. The Department reviewed the relevant research (Baum & 
Schwartz: ``How Much Debt Is Too Much? Defining Benchmarks for Managing 
Student Debt,'' 2006; Cellini & Chaudhary: ``The Labor Market Returns 
to For-Profit College Education,'' 2012; Kane & Rouse: ``Labor Market 
Returns to Two- and Four-Year College,'' (1995); Avery & Turner: 
``Student Loans: Do College Students Borrow Too Much Or Not Enough?'' 
2013; and Deming, Goldin, & Katz, ``For Profit Colleges,'' 2013) as 
well as account lending ratios currently set by the Federal Housing 
Administration (FHA) and the Consumer Financial Protection Bureau 
(CFPB). We acknowledged that the research established a range of 
acceptable percentages for non-housing debt and concluded that 8 
percent for education-related debt is well within the range of 
acceptable debt levels and the standard that is most generally 
supported.
    With respect to the National Center for Education Statistics (NCES) 
``Degrees of Debt'' study, we disagree that it demonstrates that the 
annual earnings threshold is too low. The NCES methodology for 
calculating student debt-to-earnings ratios is not comparable to the 
gainful employment methodology in several key areas and results in 
higher estimates of debt burden than is observed under the gainful 
employment debt to earnings (D/E) rates. Specifically, the NCES study 
does not include students who receive Pell Grants but do not borrow, 
and looks at earnings 1 year from completion compared to approximately 
3 years after completion for the gainful employment rates. 
Additionally, the gainful employment D/E rates use the higher of mean 
or median earnings instead of just the means and the median of debt, 
which makes the D/E rates less sensitive to extremes in high debt or 
low earnings. Moreover, because the debt component of the gainful 
employment D/E rate measure is capped at the cost of tuition, fees, 
books and supplies, the gainful employment measure captures only a 
portion of the actual total student debt, which may be much higher than 
8 percent. As a result of these differences in methodology, the results 
of the NCES study do not provide a useful basis for evaluating the 
gainful employment D/E rates thresholds.
 streamline metrics for not-for-profit-service providers and title iv 
                          additional servicers
    Question. In the Consolidated Appropriations Act of 2014, Congress 
directed the Secretary of Education to report to Congress on its plan 
to ``streamline metrics by which [Not-For-Profit Loan Servicers (NFPs)] 
and Title IV Additional Servicers (TIVAs) are measured to ensure 
consistency across all servicing contracts.''
    TIVAs are required to be compliant with the Common Origination 
Disbursement System (COD), which is used to interface between the 
Department of Education, FSA, and colleges/universities and other 
schools eligible for Federal Student Loans. In its report to Congress 
subsequent to the 2014 Continuing Resolution, the Department of 
Education told the Education and Workforce Committee on March 31, 2014, 
that the Department will require the NFPs to become compliant with COD.
    The Department of Education informed my staff that last fall you 
announced, starting with their first new allocations from COD, NFP 
servicers will receive 25 percent of all new borrower accounts. The 
Department stated that ``Since the allocation process will be new to 
the NFPs, this percentage was established to minimize risk to student 
and parent borrowers by allowing time to ensure that all the NFP 
servicers are fully able to meet all requirements and expected service 
levels, including financial reporting and reconciliation, prior to 
receiving larger volumes of new accounts.''
    Please explain what assessments were used to conclude that 25 
percent of all new borrower accounts was an appropriate allocation the 
NFPs to measure performance against TIVAs, who were able in the past to 
compete for a much higher percentage of new borrower accounts. When 
will the allocation percentage change and what assessments or quality 
metrics will that percentage reflect?
    Answer. On January 1, 2015, we began providing allocations of new 
borrower accounts to the NFP servicers through the Common Origination 
and Disbursement (COD) system. Since that point, NFP servicers have 
received 25 percent of all new borrower accounts. This percentage is 
not related to measuring the performance of the NFPs relative to the 
TIVAS; as of this point the portfolios serviced by these two groups of 
vendors are too dissimilar to support direct performance comparisons. 
As the allocation process is new to the NFPs, the percentage was 
established to minimize risk to student and parent borrowers and allow 
time to ensure that all the NFP servicers are fully able to meet all 
requirements and expected service levels, including financial reporting 
and reconciliation, prior to receiving larger volumes of new accounts. 
We will re-examine this percentage for the allocation period beginning 
in September 2015; this examination will reflect servicer performance 
and operational requirements.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
     office of civil rights and student safety on college campuses
    Question. Secretary Duncan, we discussed during the hearing the 
importance of increasing funding for the Office for Civil Rights, 
reducing the backlog of complaints and supporting every effort to 
improve student safety at colleges and universities around our Nation. 
However, we did not get to talk about how your Department's efforts fit 
into the Administration's overall work on safer campuses. Would you 
please describe the Administration's overall strategy in this area?
    Answer. Ensuring that schools are safe places for teaching and 
learning is a priority for President Obama, the Administration, and the 
entire Nation. Notably, in 2014, the President convened the White House 
Task Force to Protect Students from Sexual Assault. The first Task 
Force report to the President, issued in April 2014, provided useful 
information to help address and prevent sexual assault in higher 
education and coincided with the creation of NotAlone.gov, a resource 
hub for students, parents, and stakeholders on the same topic. Under 
the White House's leadership, the Department of Education contributed 
actively to the Task Force and to the development of the NotAlone.gov 
Web site.
    At the Department of Education, we know that for students to have 
the best chance for academic success, it is imperative to create safe 
school climates that support active academic engagement through 
comprehensive, evidence-based supports for students' physical, mental, 
and behavioral well-being. One of the Department of Education's core 
strategic objectives, therefore, is to increase the success, safety, 
and health of students, particularly in high-need schools, and deepen 
family and community engagement. Another, related strategic goal of the 
Department is to increase educational opportunities for underserved 
students and to reduce discrimination and other barriers to learning 
and achievement including the lack of equitable, safe and healthy 
learning environments so that all students are well-positioned to 
succeed.
    Enforcing the laws is one critical component of the Department's 
strategy to ensure greater equity and safety for students. The Office 
for Civil Rights (OCR) and the Federal Student Aid Office (FSA) enforce 
laws to ensure safety for students across the Nation. OCR is 
responsible for enforcement of Title IX of the Education Amendments of 
1972, which protects students from discrimination based on sex 
(including sexual harassment and violence). OCR also enforces Title VI 
of the Civil Rights Act of 1964, Section 504 of the Rehabilitation Act 
of 1973, and Title II of the American with Disabilities Act of 1990, to 
ensure student safety and freedom from violence and harassment based on 
race and disability (in addition to sex). FSA enforces the Clery Act, 
which applies to postsecondary institutions. The Clery Act requires 
schools to provide crime statistics and policies to their students, 
employees, and potential students and employees and to submit crime 
statistics to the Department. In addition, schools must issue timely 
warnings and emergency notifications to the campus community. In 2014, 
the Department published final regulations to implement the changes to 
the Clery Act included in the Violence Against Women Reauthorization 
Act of 2013. Those regulations require expanded reporting by schools 
for incidents of sexual assault, domestic violence, dating violence, 
and stalking; require institutions to provide training for students and 
employees in areas such as primary prevention and bystander 
intervention; and require schools to provide additional protections for 
students involved in disciplinary proceedings relating to sexual 
assault, domestic violence, dating violence, and stalking. FSA and OCR 
share, where appropriate and possible, information about complaints, 
investigations, and expected resolutions or determinations. And where 
appropriate, if FSA and OCR are both investigating the same institution 
of higher education (IHE), they coordinate and share work plans, 
interviews of complainants and institutional officials, and public 
activities to minimize duplication of effort and burden on complainants 
and institutions and to ensure student safety.
    To support schools and districts, the President's fiscal year 2016 
budget request for the Department includes a $90 million request for 
Safe and Drug-Free Schools and Communities National Activities to 
support key initiatives in the President's Now is the Time plan, which 
sets forth several proposals to ensure student safety (including the 
addition of new resource officers and counselors, better emergency 
response plans, and more nurturing school climates). Key activities 
under this request include $62 million (of which $15 million would 
support an estimated 30 new awards) for School Climate Transformation 
Grants, and related technical assistance, to help schools train their 
teachers and other school staff to implement evidence-based behavioral 
intervention strategies to improve school climate; and $15 million for 
Project Prevent continuation grant awards to local educational agencies 
(LEAs) to help schools in communities with pervasive violence break the 
cycle of violence. Funds would also be used to help LEAs and IHEs 
recover from emergencies under Project SERV (School Emergency Response 
to Violence), and for evaluation, data collection, dissemination, 
outreach, and related forms of technical assistance. The President's 
fiscal year 2016 budget request also includes $49.6 million for the 
Elementary and Secondary School Counseling program, which would allow 
approximately 149 LEAs to hire or train qualified school counselors, 
school psychologists, child and adolescent psychiatrists, and school 
social workers to provide students with counseling services that 
provide benefits for both students and teachers by helping to create a 
safe school environment, improve teacher effectiveness and classroom 
management, increase academic achievement, and promote student well-
being and healthy development.
    More broadly, the Department is continuing its work with numerous 
agencies, including the U.S. Departments of Justice, Health and Human 
Services (HHS), and Homeland Security (DHS) and the Federal Emergency 
Management Agency (FEMA), to help ensure that schools remain among the 
safest places in our communities and to provide students the supports 
they need to succeed. In response to Now is the Time, the Department's 
Office of Safe and Healthy Students (OSHS), in collaboration with HHS, 
DOJ, FEMA, and DHS, OSHS developed a ``Guide for Developing High-
Quality Emergency Operations Plan for Institutions of Higher 
Education.'' OSHS also represents ED on DHS' Higher Education Academic 
Advisory Council, which provides advice and recommendations to DHS 
senior leadership on matters related to homeland security and the 
academic community. In addition, OSHS is active with the National 
Security Council's Combatting Violent Extremism and Active Shooter 
Preparedness sub-Interagency Policy Committee which considers roles and 
responsibilities, guiding principles, and how best to coordinate and 
synchronize efforts across government. OSHS also supports two technical 
assistance centers offering training and technical assistance to 
colleges and universities: The Readiness and Emergency Management for 
Schools Technical Assistance Center, which supports schools and IHEs 
with the development and implementation of high-quality emergency 
operations plans, and the National Center on Safe Supportive Learning 
Environments, which provides training and support to IHEs around issues 
such as harassment, violence, substance abuse prevention, and hazing.
                    office of the inspector general
    Question. Mr. Secretary, I know you appreciate the important role 
that the Inspector General plays in identifying issues in the 
Department's programs and operations, and helping ensure that taxpayer 
dollars are not wasted. There are a number of open recommendations that 
your Department has not yet fully implemented. Would you please 
describe your plan for completing timely actions on these 
recommendations?
    Answer. We believe independent oversight is a critical tool to help 
the Department achieve our program goals. We consider the Office of the 
Inspector General (OIG) to be a key partner in helping the Department 
identify challenges and strengthen our operations. We also take great 
pride in the progress we have made implementing OIG recommendations to 
improve our work and the work of our grantees:

  --Through sustained efforts over several years, the Department has 
        successfully eliminated the backlog of overdue internal audits 
        of our operations. As of the end of April 2015, we have no 
        overdue unresolved OIG audits.
  --We continue to make progress addressing key management challenges. 
        In 2013, the Department successfully remediated two material 
        weaknesses relating to the large-scale information technology 
        system conversion in Federal Student Aid. In addition, while 
        grant monitoring at the State and local levels remains a 
        challenge, the OIG's 2014 report on the Race to the Top program 
        reflects some of our good progress.
  --The Department also made great strides reducing the backlog of 
        overdue external audits of our grantees. As of the end of April 
        2015, we have only 11 overdue unresolved OIG audits. That is a 
        substantial reduction from the number of overdue audits the 
        Department has carried in prior years. In addition, the 
        Department closed 23 audits for Federal Student Aid programs 
        during the first 6 months of fiscal year 2015, including an 
        audit that had been open for 17 years.

    This progress is the direct result of the Department making audit 
follow up a top management priority and implementing several key 
efforts to help ensure timely corrective action:

  --We ensure accountability and measure progress through a key metric 
        in our Strategic Plan as well as annual performance metrics for 
        each office. These metrics establish targets for audit 
        resolution and corrective action implementation.
  --We use monthly dashboards to monitor progress as well as identify 
        and address challenges to resolution and closure of audits.
  --We established an internal governance panel, including an advisory 
        representative from the OIG, to help identify and address key 
        audit challenges and process improvements.
  --We made strategic hiring decisions to staff audit follow up work 
        and have taken other steps to strengthen the audit follow up 
        process and speed corrective action, including more proactive 
        engagement with the OIG in areas of disagreement.
    administrative data sets for program evaluation and improvement
    Question. Congressman Paul Ryan and I have proposed a commission 
that would make recommendations about how to better utilize 
administrative data in the evaluation and improvement of Federal 
programs. Would you please describe work currently being done by 
agencies of your Department to harness the power of administrative data 
sets for program evaluation and improvement? Also, please describe 
efforts in this area proposed or planned for fiscal year 2016.
    Answer. The Department of Education routinely uses administrative 
data for a wide range of statistical purposes to inform planning and 
policymaking, including evaluations to track student and teacher 
outcomes and to estimate the impacts of programs and interventions 
supported by Federal investments. Administrative data has many 
advantages: it is often less costly and burdensome to collect, and it 
captures a wider group of students more accurately than self-reported 
data, enabling policymakers to draw stronger conclusions about a 
population.
    Most often, the administrative data used in the Department's 
evaluations are from State or district longitudinal data systems. Some 
data used in these studies are obtained directly through a Memorandum 
of Understanding with States or districts participating in an 
evaluation, while some data are obtained from the Department's 
Integrated Postsecondary Education Data System (IPEDS) or the EDFacts 
database, which includes datasets from the Common Core of Data (CCD), 
the Consolidated State Performance Reports (CSPR), and the Civil Rights 
Data Collection (CRDC).
    In 2010, in response to growing recognition across the Department 
that administrative data are critical assets for the Department and the 
public, the Department established a Data Strategy Team (DST), composed 
of the National Center for Education Statistics (NCES), the Office of 
Management, and the Office of Planning, Evaluation, and Policy. Since 
its inception, the DST has improved internal coordination and 
communication, initiated new data documentation procedures within a 
consolidated data inventory, and established a Department of Education 
Disclosure Review Board to ensure that privacy in administrative data 
files is protected. In addition to creating the DST, the Department has 
taken a number of actions that support the increased use of 
administrative data for evaluation and other statistical purposes, 
including creating and making publically accessible an Education Data 
Inventory (EDI), which is a centralized, searchable catalog of the 
metadata collected by the Department, and exploring how NCES's data 
resources can be better utilized within the collections and operations 
of other Departmental entities.
    In recent years, the Department has used administrative data to 
examine topics as varied as changes in the inclusion of students with 
disabilities in State accountability systems, the distribution of 
effective teaching, and the impact on student achievement of different 
certification pathways to teaching, as described below. During fiscal 
year 2016, the Department plans to continue using administrative data 
in many studies, including the impact study of the Teacher Incentive 
Fund and the study of the Scholarships for Opportunity and Results 
(SOAR) Act. The Administration's budget request for fiscal year 2016 
also includes increased funding for NCES to allow for more frequent 
collection of student financial aid administrative data and enrollment 
records, as well as an increase for the Statewide longitudinal data 
systems program, which would enable States to promote the effective use 
of high quality administrative data to improve education and workforce 
outcomes.
    Examples of recent or ongoing Department activities that have used 
administrative data are:

  --Alternative routes to teacher certification.--Data from the CCD 
        were used to supplement a congressionally-mandated data 
        collection on the number of highly qualified teachers who are 
        currently enrolled in alternative routes. The use of the CCD 
        data allowed the Department to simplify the data collection and 
        reduce burden on States.
  --Descriptive study of distribution of effective teaching.--This 
        study used entirely administrative data from 29 school 
        districts to examine whether economically disadvantaged 
        students had systematically less access to effective teachers. 
        See the report at: http://ies.ed.gov/ncee/pubs/20144010/
        index.asp.)
  --Educator equity profiles.--CRDC data were used in the preparation 
        of State-level educator equity profiles that include 
        information on teacher experience, certification, absenteeism, 
        and average salary. The profiles compared these teacher 
        characteristics in high- and low-poverty schools, and in 
        schools with high and low concentrations of minority students, 
        in each State. The profiles were intended to provide States 
        with an example of how to analyze and display data related to 
        gaps in teacher equity in the State as a whole and in specific 
        districts.
  --The National Assessment of Career and Technical Education 
        (NACTE).--The final report for this congressionally-mandated 
        study included analyses of extant data from State performance 
        reports as well as from NCES longitudinal and cross-sectional 
        studies. For example, the analysis of State performance report 
        data examined math and English/language arts proficiency rates 
        and graduation rates for CTE concentrators as well as for all 
        students.
  --National Postsecondary Study Aid Study (NPSAS).--This study, 
        conducted with the Office of Federal Student Aid (FSA), helps 
        to fulfill the NCES mandate to collect, analyze, and publish 
        education-related statistics and is the primary source of 
        information to analyze student financial aid and inform 
        programs such as the Pell grants and Stafford loans. NCES 
        successfully expanded the use of administrative data to improve 
        data quality, reduce burden on respondents, and promote 
        administrative efficiency.
  --Priority schools and focus schools.--CSPR and CCD data were used to 
        examine identification of priority schools and focus schools 
        and support provided under ESEA Flexibility. The Office of 
        Elementary and Secondary Education is using the findings to 
        target technical assistance to States, and the Office of 
        Planning, Evaluation and Policy Development is using them to 
        inform recommendations for ESEA reauthorization.
  --Study of the impact of Teach for America and The New Teacher 
        Project (TNTP) on secondary math achievement.--This study used 
        student test scores and other information from administrative 
        data to examine whether achievement of students who were taught 
        by teachers from Teach for America or TNTP was greater than 
        students taught by teachers from other routes. This has 
        provided important information on whether alternative 
        certification pathways are a viable option for bringing new 
        teachers to the profession. See the brief at: http://
        ies.ed.gov/ncee/pubs/20134015/pdf/20134021.pdf.
  --Study of inclusion of students with disabilities (SWD) in 
        accountability systems.--This study used EDFacts data for 44 
        States and the District of Columbia to examine changes in the 
        percentages of schools that were accountable for the SWD 
        subgroup, the types of schools that were accountable, and the 
        percentage of accountable schools that were identified for 
        school improvement. See the report at: http://ies.ed.gov/ncee/
        pubs/20134017/.

    Examples of planned or proposed Department activities that will use 
administrative data in fiscal year 2016 are:

  --Evaluation of the Pell Grant Experiments under the Experimental 
        Sites Initiative.--This evaluation will determine the impact of 
        providing Pell grants to income-eligible students engaged in 
        shorter-term training than current allowed under Federal 
        financial aid rules. To keep evaluation costs very low, all of 
        the data on student characteristics and outcomes comes from 
        administrative records, such as participating colleges' 
        electronic transcripts, the Department's internal financial aid 
        records, and employment and earnings information through a 
        match with the Social Security Administration's files. See the 
        study at http://ies.ed.gov/ncee/projects/evaluation/
        pathways_pell.asp.
  --Improving the quality and use of performance data.--Through the 
        Data Quality Initiative (DQI), the Department is documenting 
        requirements and rationales for administrative data collected 
        by elementary and secondary programs and has also conducted 
        analyses of longitudinal ESEA Title III grantee data to inform 
        improvements to performance measures and targets.
  --Impact Evaluation of Support for Principals.--This study will 
        examine the impact of providing professional development for 
        principals on teacher retention, the effectiveness of 
        instructional staff, and student achievement. Beginning in 
        fiscal year 2016, the study will collect administrative records 
        on student outcomes including achievement, behavior, and 
        attendance as well as teacher outcomes (retention of effective 
        teachers and quality of newly hired teachers). See the study at 
        http://ies.ed.gov/ncee/projects/evaluation/tq_principals.asp.
  --Impact Evaluation of Teacher and Leader Evaluation Systems.--This 
        study uses student administrative records in concert with other 
        study administered surveys and observations to assess the 
        impact of using educator performance measures to provide 
        systematic feedback to guide instructional improvement. This 
        study would not have been feasible without access to 
        administrative records and the cooperation of the participating 
        districts. See the study at http://ies.ed.gov/ncee/projects/
        evaluation/tq_performance.asp.
  --Impact evaluation of the Teacher Incentive Fund.--Key questions in 
        this set of studies are whether performance bonuses impact 
        student achievement and teacher mobility and retention. Use of 
        student administrative records eliminated the need to conduct 
        additional student testing, both economizing on data collection 
        costs as well as minimizing burden on participating schools and 
        students. Educator administrative records have allowed the 
        evaluation to look at the impact of the program on teacher 
        performance and teacher mobility within the district. This 
        study will continue to collect administrative data in 2016. See 
        the study at: http://ies.ed.gov/ncee/projects/evaluation/
        tq_incentive.asp.
  --Impact evaluation of the Scholarships for Opportunity and Results 
        (SOAR) Act.--This evaluation uses administrative data on 
        characteristics of students and schools. See the study at: 
        http://ies.ed.gov/ncee/projects/evaluation/choice_
        soar.asp.
  --National Longitudinal Transition Study, 2012 (NLTS, 2012).--This 
        study is examining the characteristics, experiences, and 
        outcomes of youth with disabilities. In addition to surveys 
        administered while students were in high school, the study will 
        obtain data from high school transcripts (courses, attendance, 
        completion), the National Student Clearinghouse (college 
        enrollment and persistence), internal Department financial aid 
        records (financial aid application and receipt), and the Social 
        Security Administration (vocational rehabilitation services, 
        employment, earnings). See the study at http://ies.ed.gov/ncee/
        projects/evaluation/disabilities_ideatrans.asp.
  --Statewide longitudinal data systems (SLDS).--In fiscal year 2015, 
        the Department will award grants to States to support the 
        collection and use of administrative data within their SLDS to 
        improve education and workforce outcomes. An increase for the 
        SLDS program was requested in the Administration's fiscal year 
        2016 budget to support new grant awards in 2016.
  --Study of the Distribution of Effective Teaching.--This study is 
        solely based on student administrative records and is examining 
        the equitable distribution of teachers across schools within 
        districts. See the study at: http://ies.ed.gov/ncee/projects/
        evaluation/tq_distribution.asp.
  --Study of Enhanced College Advising in Upward Bound.--This study is 
        assessing the effectiveness of a low-cost, college advising 
        approach designed to improve college fit and persistence among 
        Upward Bound participants. The study relies on records provided 
        to the Department by Upward Bound programs as part of their 
        Annual Performance Reporting (student participation and 
        characteristics), the National Student Clearinghouse database 
        (college enrollment and persistence), and the Department's 
        internal financial aid records (FAFSA completion and aid 
        receipt). See the study at: http://ies.ed.gov/ncee/projects/
        evaluation/pathways_upward.asp.

    In addition, the Department, in conjunction with the Department of 
Labor, recently published joint draft regulations for implementing the 
Workforce Innovation and Opportunity Act including provisions that 
would expand the use of and improve the quality of administrative data 
for managing performance and conducting evaluations. A key concept in 
the proposed regulations is the importance of leveraging administrative 
data and sharing or exchanging data across partner programs.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
     response to request to discharge federal student loan debt of 
                          corinthian students
    Question. On December 9, 2014, I joined Senator Elizabeth Warren 
and others in writing to you about defenses to repayment for Corinthian 
students. The letter, echoed recently by 10 State Attorneys General, 
asked the Department to use its existing authority to discharge Federal 
student loan debt for Corinthian students and to establish a procedure 
for students to assert a defense to repayment. When can we expect a 
response to that letter?
    Answer. We are in the process of responding to your letter. We have 
been working to develop a process for addressing the large influx of 
borrower defense claims. Our goal is to provide a simple, transparent 
system to ensure that borrowers receive all relief to which they are 
entitled. Our delay in responding to your letter is due to our desire 
to be able to give a more complete answer to your question.
           number of corinthian students requesting discharge
    Question. More recently, it is my understanding, that the 
Department has received hundreds of defense to repayment applications 
from former Corinthian students. I ask the Department to provide data 
about the number of applications for defense to repayment from 
Corinthian students that it receives and accepts, leading to a 
discharge.
    Answer. As of May 8, 2015, the Department has received 
approximately 1,000 applications for defense to repayment from 
Corinthian students. As noted in response to the previous question, we 
are working to develop a process for addressing these claims.
           federal student loan discharge for heald students
    Question. On April 14, 2015, the Department took enforcement action 
against Corinthian's Heald brand schools. Given the Department's 
findings of misrepresentation by the schools, are current or former 
Heald students eligible for Federal student loan discharge and what 
process will the Department use to provide it to them?
    Answer. Students who were enrolled in a school that closed abruptly 
are eligible for discharge. Closed school discharge is listed with 
other discharges in statute (20 U.S.C. 1087(c)). Those students who 
were enrolled in the school or withdrew within 120 days of the closing 
without completing their program automatically qualify for discharge. 
The regulation requires that the Department mail an application for 
closed school discharge to all students who appear to have been 
enrolled within 120 days if their address is known, and to attempt to 
reach students whose address is not known. In addition, the Department 
has reached out to those students to inform them of their rights and 
options, and has instructed servicers to proactively contact students 
as well.
    As discussed above, other than a discharge, many students may have 
a defense to repayment of their loan available. While the specifics of 
that process are not finalized, borrowers may at any time assert such a 
claim.
                 title iv funds to corinthian colleges
    Question. Between the signing of an Operating Agreement with 
Corinthian Colleges, Incorporated on July 8, 2014 and the acquisition 
of 53 Everest and WyoTech campuses by ECMC on February 2, 2015, how 
much Title IV money was disbursed to Corinthian Colleges, Incorporated? 
How much in loans? How much in Pell Grants?
    Answer. Approximately $576.2 million in Title IV funding was 
disbursed to Corinthian Colleges between July 8, 2014 and February 2, 
2015. Of this amount, $376.4 million was in Direct Loans and $195.9 
million was in Pell Grants, with the remaining amount in other Title IV 
programs.
           number of students enrolled in corinthian colleges
    Question. Between the signing of an Operating Agreement with 
Corinthian Colleges, Incorporated on July 8, 2014 and the acquisition 
of 53 Everest and WyoTech campuses by ECMC on February 2, 2015, how 
many new students were enrolled by Corinthian Colleges, Incorporated?
    Answer. According to information reported to the Department through 
the National Student Loan Data System (NSLDS), 25,164 students had a 
first aid-reported enrollment in a Corinthian Colleges, Incorporated 
institution between July 8, 2015 and February 2, 2015. NSLDS receives 
information for Title IV aid recipients only; therefore, a student must 
have received Title IV aid in order to be included in the results. The 
counts provided do not imply current enrollment.
   corinthian colleges' receipt of title iv funds since february 2015
    Question. Since the February 2, 2015, acquisition of 53 Everest and 
WyoTech campuses by ECMC, how much Title IV money has been disbursed to 
schools remaining under the ownership of Corinthian Colleges, 
Incorporated?
    Answer. Approximately $57.7 million, of which $44 million was in 
Direct Loans and $13.2 million was in Pell Grants and the remainder in 
other Title IV programs, has been disbursed to schools remaining under 
the ownership of Corinthian Colleges, Incorporated, between February 2, 
2015 and April 24, 2015.
      corinthian colleges' student enrollment since february 2015
    Question. Since the February 2, 2015, acquisition of 53 Everest and 
WyoTech campuses by ECMC, how many students have been enrolled at 
schools remaining under the ownership of Corinthian Colleges, 
Incorporated?
    Answer. According to information reported to the Department through 
the National Student Loan Data System (NSLDS), 804 students had a first 
aid-reported enrollment in an institution remaining under Corinthian 
Colleges, Incorporated ownership since February 2, 2015. NSLDS receives 
information for Title IV aid recipients only; therefore, a student must 
have received Title IV aid in order to be included in the results. The 
counts provided do not imply current enrollment.
                    oversight of for-profit colleges
    Question. Is the Department concerned that other major for-profit 
colleges are in danger of failing and repeating the Corinthian 
experience? What new steps are you taking to improve oversight to catch 
violations or financial problems earlier in the future?
    Answer. The Department is concerned about a repeat of what happened 
in the Corinthian case, and more broadly, about ensuring that borrowers 
are protected earlier in the process from unscrupulous institutions and 
deceptive practices. This is why we are looking into various ways to 
improve oversight of institutions and to better evaluate the risks they 
pose. Those efforts include strategies for enhancing interagency 
collaboration on oversight efforts, including State authorizing 
agencies that are in many ways the front-line of defense against 
dishonest programs and institutions.
             interagency task force on for-profit colleges
    Question. In October 30, 2014, the Department announced it would 
establish an interagency task-force on for-profit colleges based on the 
Proprietary Education Oversight Coordination Improvement Act. Can you 
please provide an update on the status of that group and when it will 
hold its first formal meeting as a group?
    Answer. As we seek to make the best use of scarce resources and 
better protect the interests of students and taxpayers, the Department 
is actively engaged in preparations to formalize an interagency task 
force to help ensure proper oversight of for-profit institutions of 
higher education. Building on collaborative enforcement, consumer 
protection, and compliance work that has been underway among our 
agencies for over a year, the Department is already taking care to 
conduct meetings with agency partners to explore plans and 
opportunities for this significant, expanded work together. Examining a 
variety of resources, we are also in the process of developing an 
initial framework for leveraging resources and expertise across task 
force participants, as well as scoping implementation activities. Our 
goal is to hold the initial formal meeting of the task force this 
spring.
                   federal student loan programs data
    Question. On March 20, 2015, an article entitled ``We're 
Frighteningly in the Dark About Student Debt'' by Susan Dynarski 
appeared on the New York Time's website highlighting the frustrating 
lack of data available on the Federal student loan program. Please 
provide your reaction to this article and any steps the Department is 
taking to better collect, analyze, and publish data on the Federal 
student loan program.
    Answer. The Department strives to make reliable and useful data and 
information available to a wide range of users while maintaining 
appropriate privacy safeguards. We are fully cognizant of the fact that 
different consumers may value different elements of college choice, 
student outcomes, and loan portfolio performance differently, so we try 
to make data available for them to evaluate those elements for 
themselves. Since 2009, the Department has proactively posted 
information about the Title IV programs to the FSA Data Center, 
available at www.FSADataCenter.ed.gov. FSA's Data Center currently 
offers robust information about applications for Federal student aid, 
disbursements, and the outstanding loan portfolio in addition to school 
compliance reports and relevant contract information. The Department 
continues to look for opportunities to expand the data made available 
on the FSA Data Center while protecting the privacy of our customers. 
As part of its fiscal year 2016 budget request, the Administration 
sought $11.6 million for the Enterprise Data Warehouse and Analytics 
project (``EDW&A''). EDW&A is an initiative to create an enterprise 
capability that provides timely, accurate, and consistent access to FSA 
lifecycle data. This will be achieved through a multi-phase approach 
with various vendor support for requirements documentation, 
development, and deployment. During fiscal year 2015, phase 1 of EDW&A 
will include creation of an enterprise data warehouse containing major 
FSA lifecycle data and the architecture to support the robust reporting 
and analytical tools. The benefits of the EDW&A initiative will improve 
reporting analysis by decreasing resource constraints currently placed 
on NSLDS and other operation systems. The 2016 request includes $1.6 
million to support continual operations and maintenance for phase 1 and 
$10 million for development work, including efforts to incorporate 
additional student aid life cycle and external data to better inform 
analytical efforts and responsibly make student aid data more 
accessible for large scale research by external stakeholders.
             improve protection for student loan borrowers
    Question. Last month, the President issued a memorandum directing 
the Department, Treasury, and the Consumer Financial Protection Bureau 
to improve protections for student borrowers, touching on servicing, 
debt collection, and bankruptcy. Can you discuss progress you've made 
implementing the memo thus far?
    Answer. We are in the process of developing an Enterprise Complaint 
System to address the student feedback system referred to in the 
Student Aid Bill of Rights. We are currently developing detailed 
requirements for the system and expect to begin building the system in 
the fall. The system is expected to be phased into production for 
customers starting in 2016.
       central point of access for federal student loan borrowers
    Question. What is your estimated timeline to ``establish a 
centralized point of access for all Federal student loan borrowers in 
repayment, including a central location for account information and 
payment processing for all Federal student loan servicing, regardless 
of the specific servicer'' as required by the memo?
    Answer. Regarding a single point of access for all Federal student 
loan borrowers in repayment, the Department is in the early stages of 
an acquisition to re-compete its student loan servicing contracts. A 
request for information was issued in December 2014, responses to which 
are currently under review. Detailed procurement plans are still under 
development but the next steps in the process are expected to begin 
later in 2015, with new awards likely to occur in 2016. The single 
point of contact will be one of the requirements of these new awards 
and will be rolled out as the new vendor or vendors come on line.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
              equity and effective school library programs
    Question. The Office of Civil Rights (OCR) collects critical data 
on resource equity in our public schools. This data collection requires 
schools and school districts to report on expenditures and staffing for 
school libraries. At the same time, the Department has not appeared to 
provide support, guidance, or encouragement across its programs to 
build State and local capacity for implementing effective school 
library programs. The Administration has consistently recommended 
eliminating Federal funding for programs that support school libraries, 
and then took several months to post the results on its website of the 
grants awarded under the Innovative Approaches to Literacy program, 
which is an appropriated fund for school library and literacy 
initiatives.
    What specific actions can and will the Department take to ensure 
that students in high need schools have access to effective school 
library programs?
    Answer. The Department supports an approach to teaching and 
learning that will prepare all students for the demands of the 21st 
Century. In many cases, this means promoting innovative ways to access 
all types of reading materials. Further, the Department recognizes that 
school libraries are in transition during the Internet-enabled digital 
age, and that States, school districts, schools, and communities are 
adopting a wide range of strategies to best meet local needs. Our 
proposed fiscal year 2016 budget includes programs that explicitly 
support literacy instruction (such as Striving Readers), programs that 
aim to support effective integration and use of technology that can be 
used to access virtual libraries and other valuable resources for 
learning, (such as E2T2 or Ready-to-Learn), and various funding sources 
that could support school personnel librarians or media specialists.
                          teacher equity plans
    Question. In the fiscal year 2013 Continuing Appropriations 
Resolution, the Department was required to report to the Labor, HHS, 
and Education Appropriations Subcommittee the extent to which students 
in certain categories are taught by teachers deemed highly qualified 
pursuant to 34 CFR 200.56(a)2(ii) by State and local educational 
agencies. This report is now more than 1 year overdue. In the meantime, 
the Department has asked States to submit State educator equity plans 
by June of this year. These plans will not be informed by the data from 
the long-overdue report. Furthermore, in the guidance that the 
Department has provided to States regarding the development of their 
equity plans, the Department encourages them to define ``inexperienced 
teacher'' as a teacher in his or her first year. Current law defines 
``beginning teacher'' as a teacher who has taught ``for less than a 
total of 3 complete school years.'' The Department's action seems to 
lower the standard for equity.
    When will the required report on the distribution of teachers 
deemed highly qualified be available? Why is the Department not 
encouraging States to use the data from this report in the development 
of State educator equity plans? And why is the Department recommending 
lower standards for teacher experience, which could result in less 
equitable access to experienced teachers for disadvantaged students?
    Answer. We expect to release the report in spring 2015. In recent 
guidance, we said that each State should use a wide range of data in 
developing its plan to ensure equitable access to excellent educators. 
For example, the Department encouraged each State to carefully review 
the data submitted by its school districts for the Civil Rights Data 
Collection, district level per-pupil expenditures the State has 
submitted to the National Center for Education Statistics via the F-33 
survey, as well as data that the State has submitted to EDFacts 
regarding classes that are taught by highly qualified teachers, and any 
other data that are high-quality, recent, and relevant. In particular, 
we said that States would likely have additional data, including data 
on teacher and principal turnover rates or effectiveness ratings, based 
on the significant work in most States over the past few years to 
create and update longitudinal data systems. This guidance is available 
at http://www2.ed.gov/programs/titleiparta/equitable/eafaq2014.doc.
                          value added measures
    Question. As part of Race to the Top and as a requirement for NCLB 
waivers, the Department has required States to include ``student growth 
as a significant factor'' in educator evaluations. The Department is 
also proposing to require student growth measures to evaluate teacher 
preparation programs. The implementation of this requirement has 
resulted in the broad use of value-added measures, which are the 
primary method for measuring student growth, in educator evaluation 
systems. Research has shown the challenges with using value-added or 
student growth measures for high stakes decisions. The measures are 
unstable and often biased or inaccurate for teachers that teach certain 
groups of students. The value-added results show correlation and not 
causation. They do not provide formative feedback to educators, and 
they could trigger unintended consequences such as more intensive test 
preparation rather than well-rounded instruction.
    Given the evidence-base and the potential for negative 
consequences, why has the Department approved grants and waivers to 
support these policies? Does the Department plan to advise States to 
reduce the potential for the negative consequences, and if so, how?
    Answer. Race to the Top (RTT) and other ED initiatives have 
encouraged the field to go further in designing and implementing 
teacher and school leader evaluation and support systems that use 
multiple measures, including student growth as a significant factor, 
and that provide clear, timely, and useful feedback, including feedback 
that identifies needs and guides professional development. States and 
districts have had discretion to adopt their own method of calculating 
student growth and to determine what is ``significant.'' They have also 
have discretion to determine what additional multiple measures to use. 
For instance, States include measures such as lesson plan preparation, 
student surveys, family engagement, professional growth activities, and 
strategies to instruct students with diverse needs.
    Developing and implementing educator evaluation and support systems 
is critical but challenging work. The Department has provided guidance 
to help States and districts ensure that these systems provide 
accurate, reliable, and useful information to support improved 
instruction. For example, in ``Measuring Teacher Effectiveness Using 
Growth Models: A Primer,'' the Department's Reform Support Network 
discussed important differences between student growth models and 
highlighted that selecting a model involves thinking carefully about 
what types of decisions will be made with the results and what model 
will provide the best information for these decisions. This guidance is 
available at https://www2.ed.gov/about/inits/ed/implementation-support-
unit/tech-assist/measuring-teaching-matters.pdf.
    We have consistently required States and districts to engage 
stakeholders and communities in the development of all of its policies, 
including the development of teacher and leader evaluation and support 
systems. Finally, we have encouraged States and districts to engage in 
a process of continuous improvement that leads to refinements in their 
evaluation and support systems.
                            adult education
    Question. In the budget justification documents, the Department 
makes a very strong case for the need to increase investment in adult 
education. Yet, the budget request includes only level funding for the 
State formula grant program. Under the Administration's request the 
program would be funded $27 million below its funding level in fiscal 
year 2011 and far below the $622 million authorized for fiscal year 
2016 under the Workforce Innovation and Opportunity Act that was signed 
into law last year. How does the Department plan to address the growing 
need for adult education with dwindling resources for the basic State 
grant program?
    Answer. In addition to maintaining funding for the formula grant 
program, the Budget's proposed increase under the Adult Education 
National Leadership Activities would support activities that would lead 
to greater efficiency in the provision of services to adult learners, 
allowing both Federal and State investments to go further.
    The Workforce Innovation and Opportunity Act requires that Unified 
State Plans describe how the State will align content standards for 
Adult Education with State standards under the Elementary and Secondary 
Education Act. The budget includes funding to help States meet this 
requirement, which should lead to the more efficient delivery of 
services by local providers to help adult learners become ready for 
employment, economically self-sufficient, and more engaged as citizens.
    The Administration has also proposed additional support for States 
in their collection and reporting of data. This would allow States to 
redirect scarce resources toward other administrative improvements and 
State leadership activities such as professional development and 
technical assistance to local providers.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
         high quality stem activites and after school programs
    Question. What programs has the Department of Education created, or 
supported, to put structures in place that support afterschool program 
providers to offer high quality STEM programs that engage students in 
STEM fields and build STEM-relevant skills and proficiencies for the 
21st century workforce?
    Answer. High-quality afterschool STEM activities can reach young 
people, especially if they give students exciting opportunities that 
connect to learning during the school day. We have supported 
afterschool STEM projects primarily under the 21st Century Community 
Learning Centers (21st CCLC) program and through related national 
activities. For example, our online professional learning and technical 
assistance for 21st CCLC projects (https://www.y4y.ed.gov/) includes a 
broad range of ready-to-use and customizable resources for local 21st 
CCLC providers to learn about and launch STEM programs and coordinate 
with school-day partners.
    In addition, with national activities funds, the Department is 
collaborating with the National Aeronautics and Space Administration 
(NASA), the Institute of Museum and Library Services, and the National 
Park Service (NPS), to provide models and carry out descriptive studies 
of high-quality afterschool STEM program implementation while bringing 
STEM content and interactions with STEM professionals to students 
outside of the regular school day. These efforts engage children and 
youth in STEM experiences by providing authentic content and 
opportunities to interact with STEM professionals. They also introduce 
students to new concepts and skills and help students see real-life 
applications of what students are learning in school. For examples, 
please see information about the ED-NASA initiative, including videos 
of student projects, online at http://www.ed.gov/blog/2014/01/working-
together-to-build-tomorrows-stem-workforce/. These interagency 
collaborations also support STEM education goals established by the 
Administration's Committee for STEM Education (CoSTEM).
                   education technology state grants
    Question. I understand that your budget request proposes $200 
million for Education Technology State Grants. How do you envision this 
proposed program differing from the funds that were cut from the 
Enhancing Education Through Technology program? I also have concerns 
that the budget proposal would encourage States to provide competitive 
subgrants to districts that can serve as ``model districts.'' How do 
you propose ensuring that all school districts can share in the 
benefits of such opportunities?
    Answer. The Administration's ConnectED Initiative, which includes 
investments by the Federal Communications Commission as well as private 
sector contributions, aims to significantly expand access to the 
Internet in the Nation's schools. The fiscal year 2016 request for 
Educational Technology State Grants would support a simultaneous effort 
to help ensure that teachers and leaders are prepared to use the 
technology to improve professional learning and deliver personalized 
instruction.
    Based on the Department's experience implementing this program when 
it was previously funded, the Administration is seeking appropriations 
language to make important programmatic improvements. In particular, 
the new appropriations language would: (1) require SEAs to award 100 
percent of subgrant funds competitively; (2) target subgrant awards to 
applicants with existing technology capacity, including connectivity 
and devices; (3) promote evidence-based practices; (4) limit local 
spending on hardware and instead focus on supporting teacher 
professional development and coaching; and (5) ensure that all States 
are able to reserve sufficient funds to support meaningful State-level 
activities.
    The Administration's request will help State leaders create more 
models of effective technology use in their districts while also 
promoting efforts to share effective practices statewide. Under the new 
appropriations language, States would make competitive subgrants to 
districts that have basic technology infrastructure and that commit to 
using evidence-based strategies where possible. The requested funding 
would also build State capacity to identify and scale up effective 
strategies from model districts to all districts in the State. This is 
critical to help ensure that new infrastructure is used in a way that 
will be meaningful for students and educators.
                       student aid bill of rights
    Question. As you may know, earlier this year, I reintroduced the 
Simplifying Access to Student Loan Information Act. My legislation 
would incorporate private student loan debt information into the 
National Student Loan Data System, which currently contains information 
about a borrower's Federal student loan debt. Further, I know that in 
the Presidential Memorandum issued in March establishing a ``Student 
Aid Bill of Rights,'' the President calls for a ``centralized point of 
access for all Federal student loan borrowers in repayment.'' I 
understand that Congressional action will be necessary to enact a 
change to include private student loans in the system, but am curious 
if your Department has explored pathways that the agency can take, such 
as a study to examine what capacity might be needed to make such a 
change, for the benefit of borrowers, especially as you develop plans 
related to the President's memoranda?
    Answer. The Department has not conducted a study to examine the 
capacity needed to make a change to NSLDS in order to maintain data on 
all private borrowers. However, the Department currently collects 
private loan data for students in Gainful Employment programs who are 
receiving Title IV aid. Based on our experience in this collection, we 
believe it would be feasible to implement these changes if the Congress 
were to pursue statutory change to enable us to collect private student 
loan data for all students, not just students who receive Title IV aid.
               borrowers ability to choose loan servicer
    Question. I remain concerned by the Department's decision not to 
allow the Not-for-Profit Servicers to make and service consolidation 
loans. This action forces student and parent borrowers interested in 
obtaining a consolidation loan to switch to one of the four TIVAS that 
they have had little or no contact with, even if they are happy with 
the performance of their NFP servicer.
    Could you please explain the rationale for denying borrowers the 
choice to remain with their current servicer, if that happens to be an 
NFP servicer, if they so choose? Will the Department reexamine this 
policy?
    Answer. The responsibility for most elements of originating and 
servicing new consolidation loans was competitively awarded to the four 
Title IV Additional Servicers (TIVAS) in fiscal year 2013 as part of 
the transition from the expiring Common Services for Borrowers 
contract. As this contractual arrangement is already in place and 
provides sufficient capacity to provide the required services for all 
estimated consolidation volume over that period, we do not plan to 
award additional contracts to service new consolidations at this time. 
To do so would incur additional expense, create additional risk, and 
add operational complexity.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee will stand in recess. We 
will leave the record open for 1 week for additional questions.
    [Whereupon, at 11:46 a.m., Thursday, April 16, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 23.]



</pre></body></html>
